<html>
<title> - TERRORISM IN AFRICA: THE IMMINENT THREAT TO THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
              TERRORISM IN AFRICA: THE IMMINENT THREAT 
                       TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                       U.S. GOVERNMENT PUBLISHING OFFICE
94-891 PDF                 WASHINGTON : 2015                       
                     
            
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  
                   
                     
                     
                     
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Patrick Meehan, Pennsylvania         Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Dr. J. Peter Pham, Director, Africa Center, Atlantic Council:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Thomas Joscelyn, Senior Fellow, Foundation for Defense of 
  Democracies:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Dr. Daniel Byman, Research Director, Center for Middle East 
  Policy, Center for Security Studies, Brookings Institute:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

     TERRORISM IN AFRICA: THE IMMINENT THREAT TO THE UNITED STATES

                              ----------                              


                       Wednesday, April 29, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:22 p.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Barletta, Katko, Higgins, 
and Vela.
    Also present: Representatives Jackson Lee and Wilson of 
Florida.
    Mr. King. The committee will come to order. Subcommittee on 
Counterterrorism and Intelligence will come to order. We are 
meeting today for our second hearing of the 114th Congress to 
hear testimony from three distinguished experts regarding 
terrorism in Africa and the imminent threat to the United 
States.
    I would like to welcome the Members of the subcommittee, 
and my appreciation for the witnesses who are here today.
    Now I will make an opening statement.
    We understand there are going to be votes at about 1:15 or 
1:20, so we will try to get through the opening statements, and 
then certainly we want to hear what you have to say. We thank 
you for being here today.
    We are holding this hearing to raise awareness and to 
discuss threats related to the spread of Islamist terror 
ideology on the African continent. While this has been 
happening over the last decade, I still do not believe that the 
United States has an appropriate counterterrorism strategy to 
address the threat, which leaves the homeland and U.S. 
interests vulnerable.
    There is no doubt that we are behind the curve in taking 
threats from terror groups in Africa seriously. We have seen on 
too many occasions that al-Qaeda-affiliated groups in Africa 
will attack American and Western interests when they see an 
opening. This was true in Libya, Algeria, Nigeria, and Kenya.
    Documents received from bin Laden's Abbottabad compound 
show how the dead terror leader was looking for operatives in 
Africa to carry out Western attacks. We saw this materialize on 
December 25, 2009, when a Nigerian national, Abdulmutallab, was 
directed by al-Qaeda in the Arabian Peninsula to carry out an 
attack on a U.S.-bound plane.
    Now we are seeing clear evidence of the Islamic State of 
Iraq and Syria, ISIS, seeking to expand partnerships with 
Islamist terror groups in Africa. Boko Haram in Nigeria, terror 
groups in Egypt and Libya, and certain factions within al-Qaeda 
in the Islamic Maghreb have pledged allegiance to ISIS 
leadership. This does not lessen the threat these groups pose 
to the United States.
    While it is imperative that the United States maintain and 
increase counterterrorism pressure in the Middle East and South 
Asia, we would be foolish to turn our backs on the imminent and 
growing threat posed by terror groups operating in Africa. The 
administration has not devoted, I believe, enough attention and 
resources to fight this growing threat.
    Emboldened by the lack of consequences, Africa-based 
Islamist terrorist groups in recent months have perpetuated 
numerous acts of violence against innocent people. During 
Easter in Kenya al-Shabaab murdered hundreds of Christian 
students at a university. This was the same group of Islamist 
terrorist who slaughtered 67 men, women, and children at 
Nairobi's Westgate Mall in 2013.
    In February of this year al-Shabaab, headquartered in 
Somalia, urged attacks on Western shopping malls, calling out 
the Mall of America in Minnesota by name.
    In Nigeria--and I realize we have several members today who 
are sitting on the panel because of their special interest in 
Nigeria--even though all of us have an interest, they have 
particular interest--Boko Haram kidnapped 276 girls from a 
school and, it is widely believed by U.S. officials, sold them 
into slavery, prostitution, and forced marriages.
    Now, I understand that the Nigerian military, perhaps, I 
think, in the last 24 hours, did rescue nearly 300 men--300 
women and girls from Boko Haram terror camps, and this is 
extremely positive. If the report is true, all of us are 
gratified by that. However, there are still the original 200 
who were kidnapped in 2014 are still missing.
    In August 2011 this group claimed responsibility for a car 
bomb outside the U.N. headquarters killing more than 20 people. 
The State Department designated Boko Haram a foreign terrorist 
organization in November 2013. This was more than 2 years after 
the group conducted its first attack against a Western 
interest, and also long after a number of Members of this 
committee asked to have it declared a foreign terrorist 
organization.
    Earlier this month the group publicly pledged allegiance to 
ISIS leadership, announced its new name as Islamic State's West 
African Province.
    In Algeria and Mali, al-Qaeda in the Islamic Maghreb aims 
to overthrow the government of Algeria and begin its own 
Islamic caliphate. It has spawned splinter groups whose goal is 
to unite all Muslims from the Nile to the Atlantic in jihad 
against Westerners.
    In Libya, ISIS may have control over as much as three 
provinces, in November of last year reportedly took over the 
city of Derna, a Mediterranean coastal town just across from 
the Greek island of Crete, a popular tourist destination for 
Westerners, including Americans, and not very far from the 
coasts of Sicily and Israel. In February ISIS released a video 
of the brutal execution of 21 Egyptian Christians kidnapped in 
Libya.
    In addition, there are splinter groups and smaller 
sympathetic jihadist organizations in almost every North 
African nation. Africa is clearly a ripe recruiting ground for 
ISIS and al-Qaeda--one that both have shown all-too-happy to 
exploit.
    Both ISIS and al-Qaeda are actively recruiting residents 
and citizens of Western nations, including the United States, 
to commit acts of jihad. We have been accustomed to hearing 
news of Americans or Brits arrested for joining or attempting 
to join ISIS or planning attacks in their home country.
    The intelligence community, particularly the FBI, is to be 
commended for its proactive role in preventing these persons 
from achieving their violent aims. Yet, I still do not believe 
there is an overall strategy for dealing with this urgent 
threat at its source. I am concerned that as we improve our 
ability to prevent Americans and others from joining ISIS in 
Syria and Iraq, home-grown jihadists may seek training with 
affiliated groups in Africa.
    As like-minded Islamic groups join forces and conquer new 
territory in Africa, it is time for the United States to treat 
every ounce of terrorism as the sobering threat it is, whether 
that source is in Syria or Somalia, in Mosul or Mozambique, in 
Tikrit or Tunisia. We have, therefore, invited a distinguished 
panel of experts to share their expertise with us on this 
terrorist threat from Africa and what the political leaders of 
the United States must do to protect our citizens and prevent a 
terrorist attack in the United States.
    With that, I conclude my remarks and I recognize the 
distinguished Ranking Member, Mr. Higgins, from New York.
    Mr. Higgins. I would like to thank the Chairman for holding 
this hearing today, and for the witnesses for their 
participation.
    Violent Islamist extremists are not new in Africa. Al-
Qaeda's bombing of the U.S. embassies in Kenya and Tanzania in 
1998 demonstrate its reach and its ability to recruit from 
Africa's Muslim communities.
    Groups in Algeria and Somalia later affiliated themselves 
with al-Qaeda. Foreign fighter flows from North and East Africa 
to Afghanistan and Iraq have long been of international 
concern, as are flows to Syria.
    High-profile extremist attacks have intensified in recent 
years, including mass casualty bombings in Uganda, Nigeria, and 
Somalia; attacks on U.S. facilities in Benghazi and Tunis in 
2012, and U.N. facilities in Algeria, Nigeria, and Somalia; 
deadly sieges at Algeria's major gas plant in Kenya's Westgate 
Mall in 2013; the 2014 abduction of more than 270 Nigerian 
school girls; executions of Christians in Libya; and the recent 
attack on Tunisia's Bardo Museum and a university in Kenya. 
These are a few examples of a growing list.
    Specifically, al-Qaeda operatives and other violent 
extremists--Islamist extremist groups have had a presence in 
East Africa for 2 decades. In the 1990s Sudan hosted foreign 
extremists, including Osama bin Laden.
    Al-Shabaab emerged in predominantly Muslim Somalia in the 
early 2000s, amid the proliferation of Islamists in clan-based 
militias that flourished in the absence of central government 
authority. Some of its founding members trained and fought with 
al-Qaeda in Afghanistan, and known al-Qaeda operatives were 
associated with the group during its founding.
    Today, al-Shabaab continues to wage a violent campaign 
against the Somalia government, the African Union forces, and 
international targets in Somalia. Al-Shabaab activity in Kenya 
has also increased significantly in recent years. More than 600 
people have been killed in attacks there since 2012.
    Its leaders have issued repeated threats against the United 
States and Western targets in Somalia and beyond and have 
called for strikes against the United States. A February 2015 
video from a group advocated attacks in Kenya and abroad and 
named several shopping malls in Europe and the United States as 
potential targets, including Minnesota's Mall of America.
    On January 1, 2008 my neighbor and constituent, John 
Granville, and his advisor, Abdel Abbas, were killed while 
killed while promoting free and fair elections in South Sudan 
on behalf of the United States Agency for International 
Development. Mr. Granville and Mr. Abbas were killed by Islamic 
extremists after leaving the British Embassy on New Year's Eve.
    Today, two of his killers are believed to be among al-
Shabaab's ranks. I am still pushing the United States 
Department of State to pressure the government of Sudan to 
bring about justice for Mr. Granville and Mr. Abbas.
    When we look at these kinds of attacks, it is important 
that we keep them in the proper context while remaining aware 
and vigilant.
    I look forward to a robust discussion with the witnesses 
today about terrorist groups in Africa; their rivalries for 
resources, recruits, and territory; and how we can shape U.S. 
policy to counter their efforts.
    I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             April 29, 2015
    Violent Islamist extremists in Africa are not a new phenomenon. Al-
Qaeda's bombings of the U.S. embassies in Kenya and Tanzania in 1998 
demonstrated its reach and ability to recruit from Africa's Muslim 
communities. Groups in Algeria and Somalia later affiliated themselves 
with al-Qaeda. Foreign fighter flows from North and East Africa to 
Afghanistan and Iraq have long been of international concern, as are 
flows to Syria.
    High-profile extremist attacks have intensified in recent years, 
including mass casualty bombings in Uganda, Nigeria, and Somalia; 
attacks on U.S. facilities in Benghazi and Tunis in 2012 and U.N. 
facilities in Algeria, Nigeria, and Somalia; deadly sieges at Algeria's 
In Amenas gas plant and Kenya's Westgate Mall in 2013; the 2014 
abduction of more than 270 Nigerian schoolgirls; executions of 
Christians in Libya; and the recent attacks on Tunisia's Bardo Museum 
and a university in Garissa, Kenya, among others.
    Those are a few examples on a growing list. Specifically, al-Qaeda 
operatives and other violent Islamist extremist groups have had a 
presence in East Africa for 2 decades. In the 1990s, Sudan hosted 
foreign extremists, including Osama bin Laden.
    Al-Shabaab emerged in predominately Muslim Somalia in the early 
2000s amid a proliferation of Islamist and clan-based militias that 
flourished in the absence of central government authority. Some of its 
founding members trained and fought with al-Qaeda in Afghanistan, and 
known al-Qaeda operatives were associated with the group during its 
founding. Today, al-Shabaab continues to wage a violent campaign 
against the Somali government, AU forces, and international targets in 
Somalia.
    Al-Shabaab activity in Kenya has also increased significantly in 
recent years; more than 600 people have been killed in its attacks 
there since 2012. Its leaders have issued repeated threats against U.S. 
and Western targets in Somalia and beyond, and have called for strikes 
against the United States. A February 2015 video from the group 
advocated attacks in Kenya and abroad, and named several shopping malls 
in Europe and the United States as potential targets, including 
Minnesota's Mall of America.
    On January 1, 2008, my neighbor and constituent, John Granville and 
his driver, Abdel Rahman Abbas, were killed while promoting free and 
fair elections in South Sudan on behalf of the U.S. Agency for 
International Development (USAID). Mr. Granville and Mr. Abbas were 
killed by Islamic extremists after leaving the British Embassy. Today, 
two of his killers are believed to be among al-Shabaab's ranks. I am 
still pushing the U.S. Department of State to pressure the government 
of Sudan to bring about justice for Mr. Granville and Mr. Abbas.
    When we look at these kinds of attacks it is important to keep them 
in the proper context, while remaining aware and vigilant. I look 
forward to a robust discussion with our witnesses today about terrorist 
groups in Africa, their rivalries for resources, recruits, and 
territory, and how we can shape U.S. policy to counter their efforts.

    Mr. King. I thank the Ranking Member, and I thank him and 
his staff for the cooperation they have shown in making this a 
truly bipartisan hearing. Other Members are reminded that 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 29, 2015
    Over the past 5 years, democracy and progress have been marching 
forward in Africa and the Middle East. These strides have made life 
more difficult for terrorist groups. The United States continues to 
engage in military and civilian efforts to counter violent extremism in 
Africa. While most of our military efforts have eliminated senior 
leadership within terrorist organizations, these missions have also 
killed civilians.
    Perfection is not possible, but we must continue to ensure that our 
missions remain targeted and properly executed. As our interests and 
military actions become almost exclusively focused on the recent gains 
of the Islamic State, I would encourage my colleagues to remember that 
other terrorist groups remain active.
    Prior to the Charlie Hebdo attacks in Paris earlier this year, al-
Qaeda's operations appeared to have been diminished. However, it seems 
that now, perhaps in response to our growing interest in the Islamic 
State, al-Qaeda is intent on reminding us that it remains a threat to 
the United States. Today, we will hear testimony to confirm that while 
the methods may be different, the end-game for the groups within Africa 
is the same, whether they remain independent or pledge allegiance to a 
more established terrorist organization.
    For example, Boko Haram has now pledged its allegiance to the 
Islamic State. Boko Haram is responsible for killing over 11,000 
people, including more than 5,000 this year alone. Until recently, the 
out-going president of Nigeria did not seem equipped or ready to 
effectively fight Boko Haram. Boko Haram's focus on targeting women and 
children, including the kidnapping of over 200 school girls last April, 
garnered international attention and spawned the social media campaign 
``Bring Back Our Girls.''
    Yesterday, after a full year of military and civilian pressure from 
Nigerian officials and international partners, including the United 
States, 200 girls were rescued from a Boko Haram camp by the Nigerian 
army. We do not know for sure if these are the same girls that were 
kidnapped last April, but we do know that Boko Haram forcibly uses 
women and girls as sex slaves and fighters. The rescue of these girls 
is nothing short of miraculous, but more needs to be done to diminish 
the capabilities of Boko Haram. I am hopeful that with Nigeria's change 
in leadership and international cooperation, substantive strides can be 
made against Boko Haram.
    No matter where these terrorist groups are located, all of them 
remain united in their goals to cause devastation in the United States 
and abroad. In order for us to wage an effective assault against the 
Islamic State and al-Qaeda, it is important for us to review what has 
worked in the past.
    However, I would again warn that hearings like this may incite 
panic among the public without immediate and imminent threats. As 
capabilities diminish in groups like al-Qaeda and the Islamic State, 
they will begin to use our fears as their propaganda. I want to be 
clear. I am not advocating ignoring credible threats and standing in 
the face of danger. Credible threats cannot be ignored. But what also 
cannot be ignored are the costs of terrorism and terrorist threats. The 
methods currently used to decrease the reach and presence of terrorist 
organizations have limits that must be exercised when there is no 
credible and actionable intelligence.

    Mr. King. Now, without objection, I would ask unanimous 
consent for Ms. Wilson to sit at the dais and participate in 
the hearing.
    Hearing no objections, so ordered.
    Our first panelist this morning is Dr. J. Peter Pham, who 
is the director of the Atlantic Council's Africa Center. He was 
previously senior vice president of the National Committee on 
American Foreign Policy and editor of its bimonthly journal, 
American Foreign Policy Interests.
    He was also a tenured associate professor at James Madison 
University, where he was director of the Nelson Institute for 
International and Public Affairs. He has served on the senior 
advisory group of the U.S. Africa Command since its creation.
    Dr. Pham.

 STATEMENT OF J. PETER PHAM, DIRECTOR, AFRICA CENTER, ATLANTIC 
                            COUNCIL

    Mr. Pham. Thank you very much, Mr. Chairman.
    I would like to present a summary of my prepared remarks 
and ask that the entirety be entered into the record.
    Mr. King. Without objection.
    Mr. Pham. Thank you.
    Mr. Chairman, Ranking Member Higgins, distinguished Members 
of the subcommittee, Ms. Wilson, I would like to begin by 
thanking you not only for the specific opportunity to testify 
today on the subject of terrorism in Africa, but also thank you 
for the sustained attention that the United States House of 
Representatives has in general given to this challenge.
    I failed to recall that it was this Subcommittee on 
Counterterrorism and Intelligence that in 2011 convened the 
very first Congressional hearing on Boko Haram. At that time, 
Boko Haram was considered so obscure that all the participants 
at that event could have assembled in the proverbial broom 
closet.
    Sadly, our analysis proved prescient and, rather than 
fading away as some dismissively suggested that it would, Boko 
Haram went on to pose an even greater menace--not only to 
Nigeria and its people, but to their neighbors in West Africa 
as well as international security writ large.
    There is a recurring trope that emerges time and time again 
about terrorism in Africa: It generally gets short shrift and, 
when attention is focused on specific groups or situations that 
appear to be emerging challenges, the threat is either 
dismissed entirely or minimized until tragedy strikes. Yet, 
dating back to at least the period when Osama bin Laden himself 
found refuge in Sudan, the leading strategists of Islamist 
terrorism have speculated about the potential opportunities to 
establish cells, recruit members, obtain financing, and find 
safe haven offered by the weak governance capacities and other 
vulnerabilities of African states.
    At present there are four geographic areas of particular 
concern in Africa with respect to terrorist groups and their 
activities: North Africa, the Sahel, Nigeria, and East Africa, 
as well as emerging challenges.
    In North Africa, the Maghreb is home to some of the 
longest-running terrorist campaigns on the African continent. 
More recently, however, the mix has become all the more 
combustible with the emergence of three so-called provinces 
aligned with the Islamic State in Iraq and the Levant amid the 
disintegration of Libya, alongside with preexisting groups like 
al-Qaeda in the Islamic Maghreb, as well as others, which 
emerged in the wake of the collapse of the Muammar Gaddafi 
regime.
    As you noted, Mr. Chairman, the brutal murder in February 
of 20 Coptic Christians from Egypt along with a Christian from 
Ghana by the Islamic State's Libyan cohorts, as well as the 
execution this month of approximately 30 Ethiopian Christians, 
highlights the malevolence of the witch's brew that has been 
allowed to simmer on the very shores of the Mediterranean Sea, 
close to the vital, but narrow sea lanes as well as to Europe 
itself.
    In the Sahel, in many respects that belt connecting North 
Africa and West Africa, stretching from the Atlantic to the Red 
Sea, is very much a transnational challenge. Not only has it 
been a conduit for arms, fighters, and ideologies back and 
forth across the Sahara, but it has emerged as a battle space 
in its own right.
    Nigeria: While the West African giant, Africa's most 
populous country and biggest economy, has demonstrated over the 
decades a legendary resilience, the reemergence in 2010 of Boko 
Haram and its increasing virulence, reflecting major 
transformations in capacity, tactics, and ideology, are 
nonetheless a cause for concern, not least because the attacks 
last year alone left more than 10,000 people dead across 
northern and central Nigeria and displaced at least 1.5 million 
others.
    In the short period of just under 5 years, Boko Haram has 
gone from a small militant group focused on localized concerns 
to a major insurgency, seizing and holding large swaths of 
territory. More recently, it has even started another shift 
with the pledge of allegiance to the so-called Islamic State.
    In East Africa, although the adoption of effective 
counterinsurgency strategy by the more recent commanders of the 
African Union force, as well as Shabaab's own blunders, has led 
the group to become gradually pushed out of Mogadishu and other 
urban centers, it--Shabaab remains a primary terrorist threat 
in the region. In fact, the attack on the Westgate Mall in 
Nairobi in 2013, which killed 67 people, as was noted, and the 
attack at the beginning of this month at Garissa University 
College, which left 148 victims dead and 79 wounded, are just 
the most notorious assaults by Shabaab.
    Moreover, the better-known terrorist groups mentioned are 
by far not the only ones out of Africa that should be of 
concern. In fact, as past experience has shown, emergent 
challenges call out for even greater attention precisely 
because they are poorly known, much less understood, and as 
nevertheless can be seen, can evolve very quickly.
    Let me summarize by pointing to six areas where I think 
U.S. policy needs to work.
    First, time and again the mistake has been made to 
underestimate, if not discount entirely, the threat faced. Part 
of this is attributable to analytical bias to limit future 
possibilities to extrapolations from the past. Another part is 
more basic: The sheer lack of resources for Africa-related 
intelligence and analysis.
    Second, with the exception of the Department of Defense 
with the U.S. Africa Command, across the U.S. Government there 
is an artificial division of the continent, which, quite 
frankly, is rejected not only by Africans, but unhelpful.
    Third, USAFRICOM, since its establishment, has been 
hampered by less-than-adequate resources.
    Fourth, closely related to terrorism is the danger posed by 
lack of effective sovereignty that bedevils African 
governments, and that requires assistance to build up those 
capabilities.
    Fifth, America's relationships--diplomatic, security, 
economic, and cultural--with Africa as a whole, and individual 
countries on the continent, expand and deepen--a positive 
development, to be sure--an unfortunate downside is the 
potential risk to U.S. persons and interests as well as the 
homeland necessarily increases. Quite simply, the threats are 
there and, by their very nature, more engagement means exposure 
and vulnerability.
    Sixth and finally, the challenge of terrorism in Africa and 
any derivative threat to the United States cannot be addressed 
except in an integrated fashion.
    Mr. Chairman, I thank you and the Members of the 
subcommittee for your attention. I look forward to your 
questions.
    Thank you.
    [The prepared statement of Mr. Pham follows:]
                  Prepared Statement of J. Peter Pham
                             April 29, 2015
    Mr. Chairman, Ranking Member Higgins, distinguished Members of the 
subcommittee: I would like to begin by thanking you not only for the 
specific opportunity to testify before you today on the subject of 
terrorism in Africa, but also for the sustained attention the United 
States House of Representatives has, in general, given to this 
challenge. In its oversight capacity, the House has been very much 
ahead of the curve over the course of the last decade-and-half and it 
has been my singular privilege to have contributed, however modestly, 
to the effort.
    It was at a 2005 briefing organized by the Subcommittee on 
International Terrorism and Nonproliferation of the then-Committee on 
International Relations, that al-Shabaab was first mentioned as a 
threat not only to the security of Somalia, but also to the wider East 
Africa region and, indeed, the United States.
    The following spring, a joint hearing of the same Subcommittee on 
International Terrorism and Nonproliferation and the Subcommittee on 
Africa, Global Human Rights, and International Operations first raised 
the alarm about the expanding crisis in the Horn of Africa occasioned 
by the takeover of Somalia by Islamist forces, including al-Shabaab.
    And, of course, it was this esteemed Subcommittee on Intelligence 
and Counterterrorism of the Committee on Homeland Security that, in 
2011, convened the very first Congressional hearing on Boko Haram in 
2011, at which I also had the privilege of testifying. At that time, 
Boko Haram was considered so obscure that the all the participants at 
the event, held in conjunction with the release of a bipartisan report 
spearheaded by Representatives Patrick Meehan and Jackie Speier on the 
threat posed by the militant group, could have convened in the 
proverbial broom closet. Sadly, our analysis proved prescient and, 
rather than fading away as some dismissively suggested that it would, 
Boko Haram went on to pose an even greater menace, not only to Nigeria 
and its people, but to their neighbors in West Africa as well as to 
international security writ large.
    In each of these cases and, indeed, others that could be cited, 
there is a recurring trope that emerges time and again: Terrorism in 
Africa generally gets short shrift and, when attention is focused on 
specific groups or situations that appear to be emerging challenges, 
the threat is either dismissed entirely or minimized--until tragedy 
strikes. Thus the Congress and the American people were assured 10 
years ago by the ``conventional wisdom'' of experts, both inside and 
outside government, that the Union of Islamic Courts, of which al-
Shabaab was the armed wing, was a ``law-and-order'' group; similarly, 5 
years ago the same analysts were virtually unanimous in their 
conviction that al-Qaeda in the Islamic Maghreb (AQIM) was more of a 
criminal racket than a ``real'' terrorist organization; and, in this 
very room less than 4 years ago, this panel was told by some witnesses 
that Boko Haram was some sort of misunderstood social-justice movement 
that should not be put on the foreign terrorist organization list.
                   background on terrorism in africa
    It is worth recalling that Africa had been a theater for terrorist 
operations, including those directed against the United States, long 
before the attacks of September 11, 2001, on the homeland focused 
attention on what had hitherto been regions seemingly peripheral to the 
strategic landscape, at least as most American policymakers and 
analysts perceived it. In 1973, Palestine Liberation Organization 
terrorists acting on orders from Yasir Arafat murdered U.S. Ambassador 
to Sudan Cleo A. Noel, Jr., and his deputy, George Curtis Moore, as 
well as the Belgian charge d'affaires and two Saudi diplomats. In 1998, 
there were the coordinated bombings of the U.S. embassies in Dar es 
Salaam, Tanzania, and Nairobi, Kenya, which killed 224 people--
including 12 Americans--and wounded some 5,000 others. And these were 
just the more notorious acts of international terrorism. If one takes 
as a definition of terrorism the broadly accepted description offered 
by the United Nations General Assembly 1 year after the East Africa 
bombings--``criminal acts intended or calculated to provoke a state of 
terror in the general public, a group of persons or particular persons 
for political purposes''--terrorism can be said to be wide-spread in 
Africa, although it has largely been a domestic, rather than 
transnational, affair. However, just because the majority of actors and 
the incidents they are responsible for are domestic to African 
countries does not mean that they cannot and do not evolve into 
international threats when, in fact, that is the trajectory many, if 
not most, aspire to and which quite a few have indeed succeeded in 
achieving.
    The first post-9/11 iteration of the National Security Strategy of 
the United States of America, released a year after the attacks on the 
American homeland, raised the specter that ``weak states . . . can pose 
as great a danger to our national interests as strong states. Poverty 
does not make poor people into terrorists and murderers. Yet poverty, 
weak institutions, and corruption can make weak states vulnerable to 
terrorist networks and drug cartels within their borders'' (The White 
House 2002).\1\ Extremism, however, requires opportunity if it is to 
translate radical intentionality into terrorist effect. A decade ago, 
one leading African security analyst succinctly summarized the 
situation in the following manner:
---------------------------------------------------------------------------
    \1\ The most recent iteration of the National Security Strategy of 
the United States of America, released February 6, 2015, couched the 
country's strategic objectives in Africa largely in terms of broader 
development goals, rather than traditional security concerns which were 
emphasized in earlier documents: ``Africa is rising. Many countries in 
Africa are making steady progress in growing their economies, improving 
democratic governance and rule of law, and supporting human rights and 
basic freedoms. Urbanization and a burgeoning youth population are 
changing the region's demographics, and young people are increasingly 
making their voices heard. But there are still many countries where the 
transition to democracy is uneven and slow with some leaders clinging 
to power. Corruption is endemic and public health systems are broken in 
too many places. And too many governments are responding to the 
expansion of civil society and free press by passing laws and adopting 
policies that erode that progress. On-going conflicts in Sudan, South 
Sudan, the Democratic Republic of the Congo, and the Central African 
Republic, as well as violent extremists fighting governments in 
Somalia, Nigeria, and across the Sahel all pose threats to innocent 
civilians, regional stability, and our national security.''

``The opportunity targets presented by peacekeepers, aid and 
humanitarian workers, donors and Western NGOs active in the continent 
are lucrative targets of subnational terrorism and international 
terrorism. Africa is also replete with potentially much higher value 
targets ranging from the massive oil investments (often by U.S. 
companies) in the Gulf of Guinea to the burgeoning tourist industry in 
South Africa.''\2\
---------------------------------------------------------------------------
    \2\ Jakkie Cilliers, ``Terrorism and Africa,'' African Security 
Review 12, no. 4 (2003): 100.

    Thus there is a very real terrorist risk to U.S. persons and 
interests--a risk that is increasing with time if one looks at its 
three constituent elements: Threat, the frequency or likelihood of 
adverse events; vulnerability, the likelihood of success of a 
particular threat category against a particular target; and cost, the 
total impact of a particular threat experienced by a vulnerable target, 
including both the ``hard costs'' of actual damages and the ``soft 
costs'' to production, the markets, etc. In short, the combination of 
these three factors--threat, vulnerability, and cost--raises 
considerably the overall risk assessment in Africa.
    And this point is not lost upon those who wish us harm. Dating back 
to at least the period when Osama bin Laden himself found refuge in 
Sudan, the leading strategists of Islamist terrorism have speculated 
about the potential opportunities to establish cells, recruit members, 
obtain financing, and find safe haven offered by the weak governance 
capacities and other vulnerabilities of African states. In fact, it has 
been noted that al-Qaeda's first act against the United States came 
several years before the embassy bombings when it attempted to insert 
itself in the fight against the American-led humanitarian mission in 
Somalia. Moreover, one of the most systematic expositions of the 
particular allure of the continent to terrorists came from al-Qaeda's 
on-line magazine, Sada al-Jihad (``Echo of Jihad''). The June 2006 
issue of that publication featured an article by one Abu Azzam al-
Ansari entitled ``Al-Qaeda is Moving to Africa,'' in which the author 
asserted:

``There is no doubt that al-Qaeda and the holy warriors appreciate the 
significance of the African regions for the military campaigns against 
the Crusaders. Many people sense that this continent has not yet found 
its proper and expected role and the next stages of the conflict will 
see Africa as the battlefield.''

    With a certain analytical rigor, Abu Azzam then proceeded to 
enumerate and evaluate what he perceived to be significant advantages 
to al-Qaeda shifting terrorist operations to Africa, including: The 
fact that jihadist doctrines have already been spread within the Muslim 
communities of many African countries; the political and military 
weakness of African governments; the wide availability of weapons; the 
geographical position of Africa vis-a-vis international trade routes; 
the proximity to old conflicts against ``Jews and Crusaders'' in the 
Middle East as well as new ones like Darfur, where the author almost 
gleefully welcomed the possibility of Western intervention; the poverty 
of Africa which ``will enable the holy warriors to provide some finance 
and welfare, thus, posting there some of their influential 
operatives''; the technical and scientific skills that potential 
African recruits would bring to the jihadist cause; the presence of 
large Muslim communities, including ones already embroiled conflict 
with Christians or adherents of traditional African religions; the 
links to Europe through North Africa ``which facilitates the move from 
there to carry out attacks''; and the fact that Africa has a wealth of 
natural resources, including hydrocarbons and other raw materials, 
which are ``very useful for the holy warriors in the intermediate and 
long term.'' Abu Azzam concluded his assessment by sounding an ominous 
note:

``In general, this continent has an immense significance. Whoever looks 
at Africa can see that it does not enjoy the interest, efforts, and 
activity it deserves in the war against the Crusaders. This is a 
continent with many potential advantages and exploiting this potential 
will greatly advance the jihad. It will promote achieving the expected 
targets of Jihad. Africa is a fertile soil for the advance of jihad and 
the jihadi cause.''

    In retrospect, it was clearly a mistake for many to have dismissed 
Abu Azzam's analysis as devoid of operational effect. Shortly before 
the publication of the article, the Islamic Courts Union, an Islamist 
movement whose leaders included a number of figures linked to al-Qaeda, 
seized control of the sometime Somali capital of Mogadishu and 
subsequently overran most of the country. While intervention by 
neighboring Ethiopia in late December 2006 dislodged the Islamists, 
Somalia's internationally-recognized but otherwise ineffective 
``Transitional Federal Government'' failed to make much headway in the 
face of a burgeoning insurgency spearheaded by al-Shabaab, which 
started out as an armed wing of the Islamic Courts. Until very 
recently, al-Shabaab dominated wide swathes of Somali territory and 
operated more or less freely in other areas not under their de facto 
control--with the exception of the autonomous Somaliland and Puntland 
regions in the north. And despite the setbacks that it has suffered in 
more recent times in terms of territorial losses to the 
internationally-backed African Union Mission in Somalia (AMISOM) and 
leaders eliminated by U.S. air strikes or Special Operations Forces, 
al-Shabaab nonetheless was formally accepted by Osama bin Laden's 
successor Ayman al-Zawahiri as an affiliate of al-Qaeda in 2012 and, as 
the horrific attack on Garissa University College in Kenya earlier this 
month reminded us, is still very much a lethal force to be reckoned 
with.
    Another al-Qaeda ``franchise'' has sought to reignite conflict in 
Algeria and spread it to the Sahel, the critical boundary region where 
Sub-Saharan Africa meets North Africa and where vast empty spaces and 
highly permeable borders are readily exploitable by local and 
international militants alike both as a base for recruitment and 
training and as a conduit for the movement of personnel and materiel. 
In 2006, after years of decline during which they had been squeezed by 
intense pressure from the outside while beset by defections from 
within, members of the Salafist Group for Preaching and Combat (known 
by its French acronym, GSPC) formally pledged allegiance to Osama bin 
Laden and al-Qaeda and began identifying themselves in communiques as 
``Al-Qaeda Organization in the Islamic Maghreb'' (AQIM). Following its 
``rebranding'' as an affiliate of al-Qaeda in 2006, AQIM expanded 
southward from Algeria, using the prestige of its new association to 
recruit ``a considerable number of Mauritanians, Libyans, Moroccans, 
Tunisians, Malians, and Nigerians,'' as its emir bragged in a 2008 
interview he gave to the New York Times. AQIM's shift beyond the limits 
of its Algerian origins proved not just a geographical move, but also 
an operational transformation, with the group acquiring both new 
tactics and new allies to implement them. Evidence subsequently emerged 
of AQIM's increasing involvement in the burgeoning drug traffic 
transiting the group's new operational areas in the Sahel, in addition 
to its well-honed kidnappings for ransoms.
    The potential for the Sahel region being the setting for an 
explosive mix of Islamist terrorism, secular grievances, and 
criminality was underscored in early 2012 in Mali. What started as a 
rebellion by the disaffected Tuareg population led to the overthrow of 
state authority in the country's three northernmost provinces with a 
combined territory the size of France and, following the 
marginalization of the ethnic separatists by their erstwhile Islamist 
partners, the entire area falling under the sway of AQIM and several 
allied groups. Only a timely French-led military intervention in early 
2013 forestalled the total collapse of the Malian state, although 
again, the situation remains fragile as the suicide attack just 10 days 
ago on United Nations peacekeepers, which left at least a dozen people 
dead, underscored.
    And while transnational terrorist challenges have been the 
preoccupation of America's policymakers, intelligence analysts, and 
military planners, most African governments are more concerned with the 
threat of ``domestic terrorism,'' cases which rarely receive much 
attention in the Western media.\3\ The emphasis is less on 
transnational phenomena and more on acts confined within national 
boundaries and involving neither targets abroad nor foreign agents. 
Consequently, lack of both government capacity and social and economic 
opportunity, on top of political, ethnic, and religious tensions, makes 
many in Africa potential candidates for radicalization.
---------------------------------------------------------------------------
    \3\ Most African states are parties to the former Organization of 
African Unity's 1999 Convention on the Prevention and Combating of 
Terrorism which defines ``terrorism'' as: ``Any act which is a 
violation of the criminal laws of a State Party and which may endanger 
the life, physical integrity or freedom of, or cause serious injury or 
death to, any person, any number of group of persons or causes or may 
cause damage to public or private property, natural resources, 
environmental or cultural heritage and is calculated to: (i) 
Intimidate, put in fear, force, coerce or induce any government, body, 
institution, the general public or any segment thereof, to do or to 
abstain from doing any act, or to adopt or abandon a particular 
standpoint, or to act according to certain principles; or (ii) disrupt 
any public service, the delivery of any essential service to the public 
or to create a public emergency; or (iii) create a general insurrection 
in a State'' (art. 1  3a).
---------------------------------------------------------------------------
                       current terrorist threats
    At present, there are four geographical areas of particular concern 
in Africa with respect to terrorist groups and their activities: North 
Africa, the Sahel, Nigeria, and East Africa. Having already discussed 
the first two areas, I will concentrate primarily on the second two as 
well as mention some emerging concerns.
    North Africa.--The Maghreb is home to some of the longest-running 
terrorist campaigns on the African continent. More recently, however, 
the mix has become all the more combustible with the emergence of three 
``provinces'' aligned with the so-called Islamic State in Iraq and the 
Levant (ISIL) amid the disintegration of Libya, alongside preexisting 
groups like AQIM and others like Ansar al-Sharia (``Partisans of 
Islamic Law'') which emerged in the wake of the collapse of the Muammar 
Gaddafi regime and took part in the September 2012 attack on the U.S. 
diplomatic compound in Benghazi, Libya, that killed U.S. Ambassador J. 
Christopher Stevens and three other American diplomatic and 
intelligence officials. The brutal murder in February of 20 Coptic 
Christians from Egypt along with a Christian from Ghana by ISIL's 
Libyan cohorts as well as the execution this month of approximately 30 
Ethiopian Christians highlights the malevolence of the witch's brew 
that has been allowed to simmer in the region. In addition, the 
videography of the slaughter of the Christians on the very shores of 
the Mediterranean Sea only emphasizes--as, no doubt, the terrorists 
intended--the threat posed not only to the vital, but narrow, sea 
lanes, but the proximity of the violence to Europe itself.
    Fortunately, commensurate with the challenges in this region, the 
international community also has solid allies with which to work on not 
just combatting terrorism, but countering its extremist roots. Notable 
among these partners is Morocco, whose aggressive, multi-pronged 
approach has much to commend it as does the kingdom's efforts to assist 
other countries in North and West Africa to fight radicalization. The 
signing during last year's U.S.-Africa Leaders Summit of a U.S.-Morocco 
Framework for Cooperation aimed at developing Moroccan training experts 
as well as jointly training civilian security and counterterrorism 
forces with other partners in the Maghreb and the Sahel recognizes the 
potential of this ``triangular'' approach.
    The Sahel.--In many respects, the belt connecting North Africa and 
West Africa, stretching from the Atlantic Ocean to the Red Sea and 
straddling ancient trade and migration routes, is an ideal environment 
for extremist groups with transnational ambitions. The region is 
strategically important for several reasons, including its role as a 
bridge between the Arab Maghreb and black Sub-Saharan Africa as well as 
its important natural resources, both renewable and nonrenewable. 
Moreover, the Sahel touches several countries--including Algeria, 
Nigeria, and Sudan--with serious security challenges of their own that 
could easily spill over their borders. In fact, some scholars have 
argued that the Sahara and the Sahel form ``a single space of 
movement'' which, for purposes of the geography of terrorism, ``should 
be considered as a continuum, something that the territorial approach 
of states and geopolitics prevents us from understanding'' \4\--a point 
which policymakers and analysts would do well to take to heart.
---------------------------------------------------------------------------
    \4\ Olivier Walther and Denis Retaille, Sahara or Sahel? The Fuzzy 
Geography of Terrorism in West Africa (Luxembourg: CEPS/INSTEAD, 2010), 
11.
---------------------------------------------------------------------------
    In point of fact, not only has the Sahel been the conduit for arms, 
fighters, and ideologies flowing back and forth across the Sahara, but 
it has emerged as a battlespace in its own right with the takeover of 
northern Mali in 2012 and the on-going fight against Islamist militants 
there as well as in Mauritania, Niger, and back into southern Libya. A 
number of international figures, not least United Nations Secretary-
General Ban Ki-moon, have underscored that that ``the rise of 
instability and insecurity in and around the Sahel'' and the risk of 
``spillover'' from the fighting in Mali could turn some of the region's 
``frozen conflicts'' like the dispute over the Western Sahara into a 
``ticking time bomb.''\5\ In fact, crossovers between groups like the 
separatist Polisario Front and terrorist groups have already been 
witnessed during recent conflicts in the region, such as in the 
instances of the former providing AQIM's allies in northern Mali with 
both fighters and, in one notorious case, an Italian and two Spanish 
hostages to trade for ransom. Moreover, at the end of 2013, the U.S. 
State Department was declaring that the merger of Mokhtar Belmokhtar's 
AQIM splinter group, the al-Mulathamun (``those who sign in blood'') 
Battalion, with MUJAO to form a new group, al-Murabitoun (``people of 
the garrison''), constituted ``the greatest near-term threat to U.S. 
and Western interests''\6\ in the region.
---------------------------------------------------------------------------
    \5\ United Nations Secretary-General Ban Ki-moon, quoted in Tim 
Witcher, ``Ban says Western Sahara Risks being Drawn into Mali War,'' 
Agence France-Presse, April 9, 2013.
    \6\ U.S. Department of State, Office of the Spokesperson, Terrorist 
Designation of the al-Mulathamun Battalion, December 18, 2013.
---------------------------------------------------------------------------
    Nigeria.--While the West African giant has demonstrated over the 
decades an almost legendary capacity to absorb violence, the 
reemergence in 2010 of the militant group Boko Haram (``Western 
education is forbidden'') and its increasing virulence--reflecting 
major transformations in capacity, tactics, and ideology--has 
nonetheless been a cause for concern, not least because its attacks 
last year alone left more than 10,000 people dead across northern and 
central Nigeria and displaced at least 1.5 million others. 
Nevertheless, in that short period of just under 5 years, Boko Haram 
has gone from a small militant group focused on localized concerns and 
using relatively low levels of violence to a significant terrorist 
organization with a clearer jihadist ideology to a major insurgency 
seizing and holding large swathes of territory. More recently, it even 
started what might well be another shift with its pledge of allegiance 
to the so-called Islamic State, although the result of this latest 
evolution is not altogether clear given the success to date of the on-
going military campaign launched in early 2015 against the group by the 
Nigerian armed forces and their regional partners.
    Boko Haram's merger with the so-called Islamic State does not 
appear have much immediate impact on the battlefield. The different 
social and political contexts in which each operates and the vast 
geographical distance separating the two groups means that each will 
have to face its foes with little more than moral support from each 
other, notwithstanding some evidence of collaboration in cyberspace and 
in terms of media production. And, in fact, in the 2 weeks after it was 
accepted into the Islamic State's fold, Boko Haram, or Wilayat al Sudan 
al Gharbi (``[Islamic State] Province in the Land of the Blacks'') or 
the ``Islamic State West Africa Province'' (ISWAP) as it started to 
style itself, lost control of most of the towns and other areas that it 
was holding, with Gwoza, the headquarters of Abubakar Shekau's aspiring 
Islamic state, being retaken by Nigerian troops on the very eve of the 
country's national elections.
    Of course, Boko Haram's affiliation with ISIL could lead to the 
internationalization of a threat that has up to now largely been 
confined geographically. There is the risk that fighters from North 
Africa and other areas finding it harder to migrate to the self-
proclaimed caliphate's territory in the Levant, may well choose to move 
to the Boko Haram emirate instead. ISIL spokesman Abu Mohammad al-
Adnani, in his communique accepting the Nigerian group's allegiance on 
behalf of his leader, said as much, telling Muslims who could not get 
to Syria or Iraq that ``a new door for you to migrate to the land of 
Islam and fight'' had opened in Africa. In fact, the international 
support recently pouring in for the multinational African anti-Boko 
Haram force from the United States, France, the United Kingdom, and 
others may render the Nigerian militants' fight all the more attractive 
to these aspiring foreign jihadists. On the other hand, Boko Haram's 
success as a movement has largely been the result of its denunciations 
of the Nigerian political elites resonating with many ordinary citizens 
as well as its ethnic appeal to the Kanuri population in particular, 
both of which advantages could be lost if it becomes merely another 
``province'' of a far-flung ``Islamic State'' focused on a broader 
jihadist agenda.
    Another possible course of evolution for Boko Haram is also hinted 
at by ISIL's Dabiq publication in its special issue, published just 
this month, heralding the allegiance of the Nigerian group. In the 
issue, whose cover was emblazoned with the headline ``Shari'ah Alone 
Will Rule Africa,'' the announcement of the tidings contained multiple 
references to ``Christians'' being ``terrorized'' and ``captured and 
enslaved'' by Boko Haram and allegations that Nigeria's ``large 
population of hostile crusaders'' had ``not shied away from massacring 
the Muslims of West Africa''--rhetoric aimed at stoking conflict along 
sectarian lines. It certainly points to a possible new operational 
emphasis for a militarily weakened militant group.
    East Africa.--East Africa has been not only a region which hosted 
Osama bin Laden and the then still-nascent al-Qaeda in the early 1990s, 
but also the setting for the 1998 bombings of the U.S. embassies in Dar 
es Salaam and Nairobi as well as of an Israeli-owned hotel in Mombasa, 
Kenya, and, simultaneously, a near-miss attack on an Israeli commercial 
airliner in 2002--all carried out by the terrorist network. But it is 
Somalia's al-Shabaab which has been the primary terrorist threat in the 
region. Founded in large part due to the efforts of Aden Hashi Ayro, a 
militant who had trained with al-Qaeda in Afghanistan in the 1990s, al-
Shabaab began its existence as one of several armed wings of an 
Islamist movement, the Islamic Courts Union, which gradually gained 
control over most of southern and central Somalia in early 2006. 
Following the rout of the Islamic Courts Union by an Ethiopian military 
intervention in early 2007, al-Shabaab emerged as the spearhead of the 
internationally-supported Transitional Federal Government (TFG), which 
was then installed in Mogadishu for the first time.
    Benefiting from the TFG's lack of legitimacy and general 
incompetence and corruption, al-Shabaab eventually managed to seize 
control of large sections of southern and central Somalia, including 
parts of Mogadishu, where it installed a brutal Islamist regime that, 
to the horror of many Somalis, carried out a number of harsh 
punishments on alleged malefactors even as it set up multi-million 
dollar rackets. Over time, the group has shifted its emphasis from a 
purely local focus on driving out foreign forces--first the Ethiopians 
and, subsequently, the AMISOM force propping up the TFG--to an 
increasingly transnational agenda, as evidenced both by its rhetoric 
and by a twin bombing in Kampala, Uganda, in July 2010, during the FIFA 
World Cup final match, which left 74 people dead and scores injured.
    The adoption of an effective counterinsurgency strategy by more 
recent commanders of the African Union force as well as al-Shabaab's 
own blunders have, since the beginning of 2011, led to the group being 
gradually pushed out of Mogadishu, Kismayo, and other urban centers it 
long held. Consequently, al-Shabaab shifted its focus, with its long-
standing formal proclamations of its adhesion to al-Qaeda being 
accepted by bin Laden's successor, who enrolled it as a formal 
affiliate in early 2012. With the Kenyan military intervention in 
Somalia in late 2011--itself a response to cross-border raids by Somali 
militants--and increasing ethnic and religious tensions within the 
former country between the ethnic Somalis and other largely Muslim 
minorities and larger, predominantly Christian, population groups, 
there is increasing risk of al-Shabaab capitalizing on the disaffection 
to gain greater entree than it already enjoys. In fact, the attack on 
the Westgate shopping mall in Nairobi, Kenya, in September 2013, which 
killed 67 people and wounded nearly 200 others, and the attack at the 
beginning of this month on Garissa University College, which left 148 
victims dead and 79 wounded, were just the most notorious assaults by 
al-Shabaab. Between the two attacks, the terrorists have been 
responsible for at least 60 attacks in just Kenya alone.
    Thus, while the group has suffered significant setbacks as a 
military force as well as lost a number of its leaders to U.S. 
strikes--including its emir, Ahmed Abdi Godane, a.k.a. Muhktar Abu 
Zubair, last September, and its head of clandestine operations outside 
Somalia, Adnan Garaar, who was thought responsible for the Westgate 
attack, just a few weeks ago--it remains very much a serious threat to 
regional and international security, and perhaps, ironically, even more 
so since it is rapidly transforming into a full-fledged terrorist 
organization. This last point is especially troublesome for two 
reasons. First, after Somalis from Somalia and ethnic Somalis from 
outside Somalia, the two largest demographic groups within al-Shabaab 
are Kenyans who are not ethnically Somali and Tanzanians--thus 
highlighting the threat to the East Africa region. Second, if al-
Shabaab is transmogrifying into a ``generic'' global jihadist 
organization, rather than an extremist group focused on Somalia, it 
does so with an advantage that other such groups do not have: A proven 
network (however small and minority within the larger community) of 
supporters in Europe and North America, as evidenced by the number of 
prosecutions and convictions obtained by Federal authorities of those 
found to be providing it with material support from this country--as 
well as by the incitement of current al-Shabaab leader Ahmed Umar, 
a.k.a. Abu Ubaidah, to attack the Mall of America and other shopping 
centers.
    Emerging Challenges.--The better-known terrorist threats mentioned 
so far are not the only ones out of Africa that should be of concern; 
in fact, as past experience has shown, emergent challenges call out for 
perhaps even greater attention precisely because they are so poorly 
known, much less understood, but nevertheless can, as has been seen, 
evolve very quickly.
    One example of such a group is the Allied Democratic Forces (ADF), 
which has operated in the borderlands between Uganda and the Democratic 
Republic of the Congo since the 1990s and shown remarkable resilience 
despite repeated efforts to stamp it out not only by the Ugandan and 
Congolese governments, but also the United Nations peacekeeping forced 
deployed in the Congo. The movement's leader, Jamil Mukulu, was trained 
in Afghanistan and Pakistan, where he associated with al-Qaeda, before 
returning to East Africa to launch the ADF with support from a number 
of foreign jihadist groups and the witting or unwitting help of several 
Islamic charities. The key to the group's survival has been its 
successful embedding in local and regional economic and commercial 
networks. Recently, there have been worrisome indicators that the group 
is becoming more active, killing more than several hundred people in 
recent months, including 5 who were beheaded in North Kivu just 2 weeks 
ago. And it can hardly be a coincidence that this very area is where 
East Africa's largest new discoveries of hydrocarbon reserves are 
located with production expected to begin in 2017, with much destined 
for domestic consumption. Time alone will tell whether the ADF evolves 
into the sort of threat that Boko Haram or al-Shabaab have posed or 
whether it degenerates into something more like the Lord's Resistance 
Army (LRA), a designated foreign terrorist group which, while brutish, 
does not actually represent the strategic threat to the United States 
and its allies posed by others so listed.
                           the u.s. response
    This broad survey permits the drawing of several conclusions about 
the U.S. response to terrorism in Africa and the possible threats posed 
to U.S. persons and interests abroad as well as the American homeland.
    First, time and again, the mistake has been made to underestimate--
if not to discount entirely--the threat faced. Part of this is 
attributable to an analytical bias to limit future possibilities to 
extrapolations from the past, a hermeneutical choice which ignores the 
dynamic potential which many terrorist organizations have exhibited. 
Another part of the explanation is even more basic: The sheer lack of 
resources for Africa-related intelligence and analysis across the whole 
of the U.S. Government. Given the geopolitical, economic, and security 
stakes, the failure to invest more in institutions, personnel, 
training, and strategic focus is incredibly shortsighted.
    Second, with the exception of the Department of Defense with the 
U.S. Africa Command (USAFRICOM), across the U.S. Government there is an 
artificial division of the continent that, quite frankly, is rejected 
not only by Africans, but is also unhelpful. If one looks, for example, 
at the North African states which are usually grouped with the Middle 
East, there are few compelling geopolitical, economic, or strategic 
reasons to do so except for Egypt. In point of fact, the overwhelming 
majority of the regional political, security, and commercial links 
extending to and from the other four countries of the Maghreb go north-
south across the Sahara, not east-west towards the Levant. While ad hoc 
arrangements such as the State Department's designation of Ambassador 
Dan Mozena to coordinate diplomatic efforts across the Sahel are 
helpful, longer-term solutions would be preferable.
    Third, USAFRICOM, the geographic command responsible for 
implementing whatever military operations, including counterterrorism 
operations, are eventually deemed necessary on the African continent, 
whether by assisting African partners or taking direct action, has 
since its establishment been hampered by less than adequate resources--
and this was before sequestration kicked in and fiscal austerity became 
de rigueur--to carry out its ordinary assigned mission, to say nothing 
of extraordinary challenges which have arisen in recent years within 
its area of responsibility. While the three successive commanders of 
USAFRICOM have managed as well as they could, often adroitly juggling 
resources and priorities, clearly a more sustainable approach is 
required.
    Fourth, closely related to terrorism is the danger posed by lack of 
effective sovereignty that bedevils many African governments. Often the 
challenge first manifests itself in criminality, whether in the form of 
piracy and other brigandage or in that of trafficking, human or 
material. While the Somali piracy threat--which, at its height, had 
several linkages to the extremists of al-Shabaab--has been generally 
diminished, attacks on commercial shipping have been on the uptick in 
the Gulf of Guinea. Moreover, West Africa has seen an explosion in drug 
trafficking, both as transshipments towards Europe and other 
destinations and, even more worrisome, for local consumption. 
Similarly, in the ever-creative pursuit of funding for their violence, 
both insurgents and terrorists have also turned to poaching. Studies 
have exhaustively documented how armed groups ranging from rebels in 
Mozambique to al-Shabaab in Somalia to fugitive Ugandan warlord Joseph 
Kony and the remaining fighters in his Lord's Resistance Army (LRA) to 
Seleka militiamen in the Central African Republic, among all-too-many 
others, have systematically exploited weak governance and porous 
borders to carry out their grisly trade, increasingly in partnership 
with organized criminal networks. For the United States, all this means 
that increasing vigilance against terrorism in Africa also requires 
greater investments in law enforcement capabilities focused on the 
continent, including enhanced analytical resources at home, more 
liaison personnel posted abroad, and stepping up efforts to build the 
capacity of our partners on the continent.
    Fifth, as America's relationships--diplomatic, security, economic, 
and cultural--with Africa as a whole and the individual countries on 
the continent expands and deepens--a positive development to be sure--
an unfortunate downside is that the potential risk to U.S. persons and 
interests as well as to the homeland necessarily increases. Quite 
simply, the threats are there and, by its very nature, more engagement 
also increases exposure and vulnerability. The answer is not to curtail 
engagement since there are clear strategic imperatives for seeking to 
build these links, but to ensure that adequate resources are mustered 
to cope with the meet the rising demand across a whole range of sectors 
from civil aviation to ports to customs and immigration, etc., for 
intelligence about and security against threats originating in Africa.
    Sixth, the challenge of terrorism in Africa and any derivative 
threat to the United States cannot be addressed except in an integrated 
fashion, with solutions that embrace a broader notion of human security 
writ large--encompassing social, economic, and political development--
which, often enough, also must transcend national and other artificial 
boundaries. This obviously is not a task for the United States alone, 
but is one which it is in America's strategic interest to embrace and 
to lead.
                               conclusion
    The administration's 2012 U.S. Strategy Toward Sub-Saharan Africa 
rightly characterized Africa as ``more important than ever to the 
security and prosperity of the international community, and to the 
United States in particular.'' The administration and the Congress 
deserve credit for efforts over the last few years to shift the 
narrative on Africa towards a greater focus on the extraordinary 
opportunities on the continent. However, if this momentum is to be 
maintained and those opportunities grasped, the United States needs to 
redouble its own efforts and also work closely with its African 
partners to manage the challenges and overcome terrorism and other the 
threats to security which stand in the way to an incredibly promising 
future.

    Mr. King. Doctor, thank you very much.
    Again, usually we give more extensive introductions, but in 
view of the time factor we would rather hear from what you have 
to say rather than my introductions.
    But with that, I am pleased to welcome back Tom Joscelyn, 
to the committee and subcommittee. He has testified here a 
number of times.
    He is a senior fellow at the Foundation for Defense of 
Democracies and senior editor of The Long War Journal, a 
widely-read publication dealing with counterterrorism and 
related issues. Much of Mr. Joscelyn's research focuses on how 
al-Qaeda and its affiliates operate around the globe, and he is 
also a frequent contributor to the Weekly Standard. I have to 
say that often I take advice from him without giving him proper 
credit.
    So I plagiarize quite a bit off you, Tom.
    With that, recognize the gentleman.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Now, thank you, Chairman King. I guess that 
is what I am here for, actually, is to get plagiarized, so that 
is good.
    But thank you, Chairman King, Ranking Member Higgins, other 
Members of the committee, and Ms. Wilson, for sitting here 
today and listening to this conversation--leading this 
conversation on the threats emerging from Africa. Like my 
colleague, Dr. Pham, here, I believe that oftentimes this 
committee is on the leading edge and sort-of ahead of the curve 
in terms of understanding evolving threats to American National 
security, and I think the situation in Africa today certainly 
does not bode well for the future.
    Unfortunately, jihadism is a growth industry in Africa, and 
that is whether you are talking about the Islamic State, or 
ISIS, as it is often referred to, or al-Qaeda. Both sides of 
this rivalry have been growing at a very fast rate, I would 
say, in Africa overall over the last several years.
    The primary victims of their terrorism are, in fact, of 
course, Africans and locals across the African continent. That 
doesn't mean that that there is no threat to the United States 
or our interests, or potentially the U.S. homeland. In fact, we 
have seen that threats to local populations abroad are 
oftentimes leading indicators of threats to us.
    And, for example, Ranking Member Higgins mentioned the 1998 
U.S. embassy bombings. The primary victims of those bombings in 
Kenya and Tanzania were, in fact, local Africans; they 
weren't--they didn't actually kill a lot of Americans in those 
attacks. But it was clearly a leading indicator of things to 
come when it came to threats to the U.S. National security both 
here at home and abroad.
    So looking at it in that comprehensive sort of integrated 
manner, I applaud you, Chairman King. I know you constantly 
look at it that way, that it is one sort of holistic picture of 
what is going on in the world. I think that is the right way to 
look at it.
    And in particular, with both ISIS and al-Qaeda in Africa, 
it is true that most of their victims are going to be local 
Africans, Muslims, people along those lines. That is a 
strategic liability for them because in their messaging, the 
more we can amplify the fact that they are killing Muslims and 
killing people locally in Africa, the bigger win that is for us 
because it rolls back their attempts to sort-of recruit and 
indoctrinate further people to their cause.
    That is something we have to constantly be mindful of, that 
we actually have many, many allies across the African continent 
that we need to work with more closely in terms of messaging, 
and strategy, and those types of things.
    But both ISIS and al-Qaeda have strategies for growth in 
Africa. The ISIS strategy is pretty clear-cut. We can all see 
it. You know, they are beheading people openly in Libya; they 
produce these gruesome, gory propaganda videos.
    The Islamic State wants you to believe they are basically 
everywhere at all times. They want to announce their presence; 
they want to give you this sense that they are this ever-
expanding caliphate.
    ISIS clearly has grown rapidly in Africa. There is no doubt 
about that. My arguments aren't meant to diminish that growth 
or characterize that growth as anything but threatening to us.
    However, I find that oftentimes the reporting sort-of 
misses the bigger picture, because al-Qaeda's strategy for 
Africa is exactly the opposite. Al-Qaeda's strategy for Africa 
is they don't want you to think they are anywhere. They want 
you to believe they are almost nowhere.
    So what al-Qaeda has been doing inside Africa is they have 
today--and just off the top of my head here I counted about 10 
different organizations which are clandestine al-Qaeda fronts 
across Africa, which are still openly loyal to al-Qaeda's 
leadership. What they are doing is they are trying to inculcate 
their ideology in these local causes across Africa.
    This is something that is very nefarious and something 
that, as we expose them and show that they are, in fact, not 
part of the local population and that they don't actually 
represent local interests, that can help turn back their 
strategy.
    Finally, I will say something about the threats to the 
United States and how these can concretely be manifested over 
time.
    I brought with me here today as a prop some of the 
declassified documents from bin Laden's compound. In fact, all 
the declassified documents that we have got available to us 
publicly from bin Laden's compound are in this folder right 
here.
    What is interesting is that bin Laden clearly saw Africa 
and the African branches of al-Qaeda as part of a comprehensive 
strategy. In fact, he integrated what they were doing in Africa 
into al-Qaeda's global designs. Those designs include, of 
course, threats to the U.S. homeland.
    Some of the things you can see in these documents are, for 
example, that the leaders of al-Qaeda's branches in Africa 
were, on more than one occasion, turned into the heads of al-
Qaeda's operations against us. So in other words, they took 
guys who were leading al-Qaeda in the Islamic Maghreb, leading 
the fight in Shabaab, and they became external operations 
chiefs for al-Qaeda globally. That is, these are guys who then 
would--actually were tasked with figuring out ways to come 
after us.
    Second, you can also see that Osama bin Laden, as you 
mentioned, Congressman, actually ordered his branches in Africa 
to designate or find candidates who were suitable for attacks 
right here in the United States. So he put the order out to al-
Qaeda's African branches and said, ``Find guys who can actually 
go to the United States and commit attacks, and they are going 
to be referred up the chain of command and we are going to use 
them.''
    Finally, what Osama bin Laden said was that the branches of 
al-Qaeda in Africa have to integrate their work with the other 
parts of al-Qaeda, including the external operations 
capability. So, as I say in my written testimony and go into 
this at some length, al-Qaeda is structured with regional 
branches where they have emirs, or leaders, who are in charge 
of their regional areas. They have two official regional 
branches in Africa--al-Qaeda in the Islamic Maghreb and 
Shabaab.
    But bin Laden specifically ordered these branches to 
coordinate their work with the external operations part of al-
Qaeda, which is tasked with coming after us. So in other words, 
this is a much more cohesive challenge, I would say, when you 
actually get into what they say themselves about how they 
operate and their functioning than I think the public discourse 
oftentimes lets on.
    I will leave it at there.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                             April 29, 2015
    Chairman King, Ranking Member Higgins, and Members of the 
committee, thank you for inviting me here today to discuss the threat 
posed by jihadist groups in Africa. In Chairman King's announcement of 
this hearing, he rightly argued that while much attention has been 
given to the threats posed by the Islamic State of Iraq and Syria 
(ISIS) and al-Qaeda in the heart of the Middle East and South Asia, 
``we must also focus on the imminent and growing threat posed by their 
affiliates operating in Africa.''\1\ Indeed, the jihadist organizations 
headquartered outside of Africa are strongly tied to various groups 
operating inside the continent. Both ISIS (or the Islamic State) and 
al-Qaeda maintain international networks that stretch across Africa.
---------------------------------------------------------------------------
    \1\ http://homeland.house.gov/hearing/subcommittee-hearing-
terrorism-africa-imminent-threat-united-states.
---------------------------------------------------------------------------
    In preparing today's testimony, I reviewed the history of al-
Qaeda's plotting against the West. A number of facts demonstrate that 
al-Qaeda's presence in Africa has been tied to these efforts. For 
instance, declassified documents recovered in Osama bin Laden's 
compound show that he ordered al-Qaeda's branches in Africa to select 
candidates capable of striking inside the United States. Bin Laden also 
ordered al-Qaeda's African branches to coordinate their work with his 
``external operations'' team, which was responsible for plotting 
attacks against Western interests. Some of al-Qaeda's most senior 
leaders, including those who have overseen al-Qaeda's planned attacks 
in the West, have come from Africa. Senior al-Qaeda leaders embedded in 
Shabaab have also trained operatives to attack in Europe. I discuss 
this evidence in detail in the final section of my written testimony.
    Complex tribal, ethnic, and religious dynamics mean that any 
summary of the situation in Africa will be necessarily incomplete. 
However, I will attempt to distill some themes that are important for 
understanding the rising jihadist threat in the continent. While there 
are important differences between ISIS and al-Qaeda, and the two are at 
odds with one another in a variety of ways, they are both inherently 
anti-American and anti-Western. Thus, they constitute a threat to our 
interests everywhere their jihadists fight.
    Since the beginning of the year, the ISIS branch in Libya has 
repeatedly attacked foreign interests. The group has bombed and/or 
assaulted with small arms the Algerian, Moroccan, Iranian, South 
Korean, and Spanish embassies in Tripoli. Fortunately, these attacks 
have caused only a few casualties, as foreign governments pulled most 
of their diplomatic personnel out of Libya months ago. But these 
incidents show the organization's followers are deeply hostile to any 
foreign presence.
    Other ISIS attacks on foreigners in Libya have been more lethal and 
at least two Americans have been killed by ISIS's so-called 
``provinces.'' In January, the group's fighters launched a complex 
assault on the Corinthia Hotel in Tripoli. Ten people, including David 
Berry, a former U.S. Marine serving as a security contractor, were 
killed.\2\ In August 2014, jihadists from the ISIS province in the 
Sinai killed William Henderson, an American petroleum worker.\3\
---------------------------------------------------------------------------
    \2\ Rich Schapiro, ``Gunmen take hostages in luxury Libyan hotel, 
kill 8 including 1 American,'' New York Daily News, January 27, 2015; 
(http://www.nydailynews.com/news/world/gunmen-hostages-libyan-hotel-
kill-3-guards-article-1.2093208).
    \3\ Cassandra Vinograd, Charlene Gubash, and Gabe Gutierrez, 
``ISIS-Linked Ansar Beit al-Maqdis Says It Killed U.S. Oil Worker 
William Henderson,'' nbcnews.com, December 1, 2014; (http://
www.nbcnews.com/storyline/isis-terror/isis-linked-ansar-beit-al-maqdis-
says-it-killed-u-n258786).
---------------------------------------------------------------------------
    Some of ISIS's most gruesome acts in North Africa have come with 
pointed threats against the West. In February, the jihadists beheaded 
21 Egyptian Copts. The propaganda video showing the murders was 
entitled, ``A Message Signed with Blood to the Nation of the Cross.'' 
ISIS explicitly threatened Italy in the video and also made it clear 
that they would target Christians simply for adhering to a different 
faith. Earlier this month, ISIS's branch followed up by killing a large 
group of Ethiopian Christians.
    In March, ISIS claimed responsibility for the massacre at the Bardo 
National Museum in Tunis. More than 20 people were killed in the 
assault, which targeted foreign tourists. Citizens of Britain, France, 
Colombia, Germany, Italy, Japan, Poland, and Spain were among the 
victims. Although ISIS was quick to lay claim to the museum slayings, 
the reality is more complicated.\4\ The Tunisian government has blamed 
the Uqba ibn Nafi Brigade, which is part of al-Qaeda in the Islamic 
Maghreb (AQIM), an official branch of al-Qaeda.\5\ Based on publicly-
available information, it appears that the attackers may have joined 
ISIS, but the operation itself was planned by the AQIM brigade's 
leadership.
---------------------------------------------------------------------------
    \4\ Daveed Gartenstein-Ross, ``Did the Islamic State Exaggerate Its 
Role in the Bardo Museum Attack?'', FDD Policy Brief, March 30, 2015; 
(http://www.defenddemocracy.org/media-hit/gartenstein-ross-daveed-did-
the-islamic-state-exaggerate-its-role-in-the-bardo-museum-attack/).
    \5\ Yaqin Hussam al-Din, ``Algeria and Tunisia join forces to fight 
`terrorism','' al-Araby-al-Jadeed, March 30, 2015; (http://
www.alaraby.co.uk/english/politics/2015/4/1/algeria-and-tunisia-join-
forces-to-fight-terrorism).
---------------------------------------------------------------------------
    Al-Qaeda's international network continues to launch high-profile 
attacks across the continent. Some of these operations directly target 
foreigners. Earlier this month, Shabaab, al-Qaeda's official branch in 
Somalia, killed more than 140 people at the Garissa University College 
in Kenya. The gunmen reportedly separated out non-Muslims for killing, 
letting many Muslims go.\6\ This shows that the organization, like 
other parts of al-Qaeda, is very concerned about the impact of its 
violence in the Muslim-majority world. In this respect and others, the 
Garissa attack was similar to Shabaab's siege of the Westgate shopping 
mall in September 2013. More than 60 people were killed, with Shabaab's 
gunmen singling out non-Muslims. Shabaab's attacks in Kenya and other 
neighboring countries are part of what the United Nations has 
identified as the group's ``regional'' strategy.\7\ Shabaab has 
undoubtedly suffered setbacks since the height of its power in East 
Africa, but it still operates a prolific insurgency inside Somalia, 
while also seeking to expand its capabilities in the surrounding 
countries. In fact, America's counterterrorism efforts in East Africa 
seem to be principally aimed at the part of Shabaab tasked with 
exporting terrorism throughout the region.\8\
---------------------------------------------------------------------------
    \6\ ``Somali Islamist rebels claim attack on Kenyan university: 
spokesman,'' Reuters, April 2, 2015.
    \7\ United Nations Security Council, ``Report of the Monitoring 
Group on Somalia and Eritrea pursuant to Security Council resolution 
2060 (2012),'' July 12, 2013.
    \8\ Bill Roggio, ``US targets senior Shabaab intelligence official 
in airstrike,'' The Long War Journal, March 14, 2015; (http://
www.longwarjournal.org/archives/2015/03/us-targets-senior-shabaab-
intelligence-official-in-airstrike.php).
---------------------------------------------------------------------------
    As we've seen over the past several years, al-Qaeda-affiliated 
groups in Africa will attack American and Western interests when the 
opportunity presents itself. The September 11, 2012 attack on the U.S. 
Mission and Annex in Benghazi and the raid on the U.S. Embassy in Tunis 
3 days later were carried out by al-Qaeda-linked groups.\9\ The Ansar 
al Sharia organizations in Libya and Tunisia, both of which are tied to 
AQIM, were involved in these assaults on America's diplomatic presence 
in North Africa. In early 2013, terrorists commanded by Mokhtar 
Belmokhtar killed dozens of foreign workers during the siege of the In 
Amenas gas facility in Algeria. Belmokhtar, who is openly loyal to 
Ayman al Zawahiri, claimed responsibility for operation on behalf of 
al-Qaeda.
---------------------------------------------------------------------------
    \9\ The U.S. Senate Select Committee on Intelligence and other 
official entities have confirmed the role of multiple al-Qaeda-
affiliated groups in the Benghazi attack. See, for example: Thomas 
Joscelyn, ``Senate report: Terrorists `affiliated' with multiple al-
Qaeda groups involved in Benghazi attack,'' The Long War Journal, 
January 15, 2014; (http://www.longwarjournal.org/archives/2014/01/
_intelligence_on_al.php).
---------------------------------------------------------------------------
    There is no doubt, therefore, that both ISIS and al-Qaeda pose a 
threat to Western interests in Africa. Below, I explore current trends 
within both organizations, highlighting some ways these international 
networks may threaten Americans both home and abroad. But first, I 
briefly look at the different strategies ISIS and al-Qaeda are 
employing to build up their networks.
                       two rival jihadist models
    In Africa, as elsewhere, we are witnessing two rival models vying 
for power among jihadists. While ISIS and al-Qaeda share some of the 
same long-term goals, the two sides have adopted radically different 
approaches to marketing their ideology and expanding their base of 
support.
    ISIS uses consistent branding, describing its followers around the 
world as part of a growing ``caliphate'' led by Abu Bakr al Baghdadi 
(the self-proclaimed caliph ``Ibrahim I''). ISIS branches are branded 
as the caliphate's ``provinces,'' whether they control significant 
territory or not. ISIS also markets its over-the-top brutality to 
project strength and intimidate its enemies. (Al-Qaeda long ago decided 
that ISIS's tactics, such as beheadings, were counterproductive for its 
cause.) The organization wants both its supporters and its foes to 
believe it is an ever-expanding menace that cannot be stopped. Because 
the group is so heavily invested in this type of messaging, it is 
relatively easy to track the organization's international organization. 
Of course, certain aspects of ISIS's operations remain hidden from 
public view. But ISIS broadcasts its presence around the world as 
loudly as it can.
    Al-Qaeda, on the other hand, has adopted precisely the opposite 
approach. Whereas ISIS wants people to see its international footprint, 
al-Qaeda goes to great lengths to hide much, but not all, of its 
organizational structure. Al-Qaeda's strategy is far more clandestine 
in nature. In contrast to ISIS's uniform branding, al-Qaeda has adopted 
numerous brands, which serve to mask the extent of its influence, 
inculcate al-Qaeda's radical ideology in local populations, and attract 
support from individuals, organizations and governments that may not 
want to be seen as openly assisting al-Qaeda. All of this makes 
tracking al-Qaeda's international network a far more difficult task.
    Al-Qaeda has played this game--using multiple brands, masking the 
extent of its influence--repeatedly in Africa. Consider the following 
examples. In February 2012, Shabaab in Somalia and al-Qaeda's senior 
leadership announced their formal merger.\10\ Some analysts have 
incorrectly argued that Osama bin Laden rejected a formal merger when 
he was alive, and it was his successor, Ayman al-Zawahiri, who decided 
to merge with Shabaab. But documents recovered in Osama bin Laden's 
compound tell a different story. Bin Laden thought of Shabaab as part 
of al-Qaeda's international network well before his death.\11\ Bin 
Laden devoted al-Qaeda's resources to helping Shabaab. For example, he 
assigned one of his key lieutenants to research Shabaab's governance 
efforts and the applicable sharia laws. The al-Qaeda master simply 
didn't want to announce the relationship, because he feared it would 
bring more international pressure on the East African group and limit 
its ability to raise funds from wealthy donors throughout the Gulf.\12\ 
In other words, bin Laden sought to conceal al-Qaeda's relationship 
with Shabaab as much as possible.\13\
---------------------------------------------------------------------------
    \10\ Bill Roggio and Thomas Joscelyn, ``Shabaab formally joins al-
Qaeda,'' The Long War Journal, February 9, 2012; (http://
www.longwarjournal.org/archives/2012/02/shabaab_for- mally_joi.php).
    \11\ See Government Exhibit 425 in the trial of Abid Naseer. The 
document, dated August 7, 2010, is a letter written from Osama bin 
Laden to Atiyah Abd al Rahman. It can be found here: http://
www.scribd.com/doc/257160502/Bin-Laden-raid-documents.
    \12\ SOCOM-2012-0000005. The document, dated August 7, 2010, is a 
letter from bin Laden to Mukhtar Abu al Zubayr, who was the emir of 
Shabaab at the time. This document was released in 2012. Bin Laden sets 
forth his reasons for not announcing the relationship in this letter. 
It is an attachment to Government Exhibit 425, which is referenced 
above and was released earlier this year. Bin Laden also explains his 
reasoning in Exhibit 425.
    \13\ Bin Laden's two letters explaining why Shabaab should hide its 
relationship with al-Qaeda are dated August 7, 2010. Incredibly, my 
colleague Bill Roggio reported just over 1 week later, on August 15, 
2010, that bin Laden told Shabaab to keep the relationship secret. See: 
Bill Roggio, ``Al Qaeda advises Shabaab to keep low profile on links, 
attack US interests,'' The Long War Journal, August 15, 2010; (http://
www.longwarjournal.org/archives/2010/08/al_qaeda_advises_sha.php).
---------------------------------------------------------------------------
    Similarly, AQIM does not typically advertise its links to the 
aforementioned Ansar al Sharia groups in Libya and Tunisia. However, 
both the United Nations' National Security Council and the U.S. 
Government have formally recognized those connections.\14\ Indeed, 
Ansar al Sharia Libya was led by an al-Qaeda loyalist named Mohammed al 
Zahawi. But Zahawi's past, including the fact that he had personally 
met with Osama bin Laden in the 1990s and adopted al-Qaeda's jihadist 
program, did not become publicly known until after Zahawi's death was 
confirmed.\15\ Astute observers could see from the beginning that these 
Ansar al Sharia groups were operating as part of al-Qaeda's 
international network, but al-Qaeda does not advertise this 
relationship the same way ISIS markets its presence in North Africa. 
This has led to much confusion in the public reporting.
---------------------------------------------------------------------------
    \14\ See, for example: Thomas Joscelyn, ``UN recognizes ties 
between Ansar al Sharia in Libya, al-Qaeda,'' The Long War Journal, 
November 19, 2014; (http://www.longwarjournal.org/archives/2014/11/
un_designates_ansar.php).
    \15\ Thomas Joscelyn, ``Ansar al Sharia Libya leader met with Osama 
bin Laden, followed his `methodology','' The Long War Journal, February 
11, 2015; (http://www.longwarjournal.org/archives/2015/02/
ansar_al_sharia_liby_2.php).
---------------------------------------------------------------------------
    In a report published in August 2012 (``Al Qaeda in Libya: A 
Profile''), the Defense Department's Combating Terrorism Technical 
Support Office (CTTSO) concluded that al-Qaeda had a clandestine 
strategy for building up its presence inside Libya.\16\ The CTTSO 
surmised that al-Qaeda was using alternative names, such as Ansar al 
Sharia, to hide its designs and that senior terrorists inside the 
country were communicating with al-Qaeda's senior leadership in 
Pakistan. Documents recovered in Osama bin Laden's compound show that 
al-Qaeda operatives were, in fact, dispatched to Libya early on in the 
uprisings against Muammar al Qaddafi.\17\ They were tasked with 
organizing al-Qaeda's efforts, but their presence was unannounced.
---------------------------------------------------------------------------
    \16\ The report can be found here: http://fas.org/irp/world/para/
aq-libya-loc.pdf. For a summary of the report, see: Thomas Joscelyn, 
``Al Qaeda's plan for Libya highlighted in congressional report,'' The 
Long War Journal, September 21, 2012; (http://www.longwarjournal.org/
archives/2012/09/al_qaedas_plan_for_l.php).
    \17\ See Government Exhibit 431 in the trial of Abid Naseer. This 
letter to bin Laden was written by Atiyah Abd al Rahman in early April 
2011. For more on this issue, see: Thomas Joscelyn, ``Osama Bin Laden's 
Files: The Arab revolutions,'' The Long War Journal, March 3, 2015; 
(http://www.longwarjournal.org/archives/2015/03/osama-bin-ladens-files-
the-arab-revolutions.php).
---------------------------------------------------------------------------
    These are just some examples of how al-Qaeda deliberately hides its 
presence in African countries.\18\ This simple tactic has led to some 
deep biases in the public reporting on jihadism in Africa and 
elsewhere. Namely, the extent of al-Qaeda's international network is 
consistently underestimated. And, in some ways, ISIS's international 
presence has been overestimated. For instance, when fighters loyal to 
ISIS held a parade in Derna last year, multiple press outlets reported 
that ISIS had taken full control of the Libyan city. Some reports make 
this claim to this day, even though it is obvious that other jihadist 
groups still have a significant presence in Derna and ISIS does not 
dominate the city in its entirety.
---------------------------------------------------------------------------
    \18\ Al-Qaeda has employed the same practice elsewhere. In Syria, 
for example, al-Qaeda's leaders tried to hide their relationship with 
the al-Nusrah Front, a regional branch of the organization. Some of the 
other ``rebel'' groups in Syria are clearly unannounced al-Qaeda front 
organizations.
---------------------------------------------------------------------------
    This observation is not intended to downplay the seriousness of 
ISIS's international expansion. ISIS's ``provinces'' have grown 
dramatically in some key areas. But exposing al-Qaeda's clandestine 
strategy provides key context for understanding the unfolding story 
inside Africa.
                overview of the isis presence in africa
    In this section, I provide a sketch of the ISIS presence in Africa. 
It is important to note that while ISIS has grown in Africa, numerous 
reports and analyses have inaccurately characterized the manner in 
which the organization has grown. For example, some claimed that AQIM 
was going to defect to ISIS. There is no evidence that this was 
considered a serious possibility by AQIM's senior leadership. The 
organization has explicitly rejected ISIS's claim to rule as a 
caliphate, reaffirming its allegiance to Ayman al-Zawahiri in the 
process. Similarly, speculative reports have claimed that Shabaab may 
defect to ISIS. While it is certainly possible that factions within 
Shabaab may want to join ISIS, there is no indication that the overall 
organization plans to do so. In fact, Shabaab's propaganda over the 
past several months has continued to advertise its role in al-Qaeda's 
network.
    Still, the ISIS presence in Africa is worrisome for many reasons. 
As explained above, ISIS's branches have repeatedly attacked foreign 
interests, while also threatening the West. Consider the following 
additional observations:
  <bullet> The ISIS presence in Africa has grown significantly over the 
        past year, especially in Libya, Tunisia, and the Sinai.--The 
        ISIS announced its merger with a wing of Ansar Bayt al Maqdis 
        (``ABM'') late last year, turning the group into one of its so-
        called ``provinces.''\19\ ISIS's growth in Libya and Tunisia 
        has been fueled mainly by young jihadists. Fighters returning 
        to their home countries from Iraq and Syria have provided a 
        pool of resources for ISIS. As of this writing, ISIS has a 
        major presence in the city of Sirte and significant contingents 
        in Benghazi and Derna, as well as elsewhere in Libya. While 
        Ansar al Sharia in Libya and Tunisia have not defected to ISIS, 
        the ``caliphate'' has successfully poached some members and 
        leaders from these groups. For example, Ansar al Sharia Libya's 
        chief sharia official in Benghazi joined ISIS earlier this 
        year.
---------------------------------------------------------------------------
    \19\ Another Egyptian group, Ajnad Misr, broke off from ABM and 
appears to be an al-Qaeda front group. Ajnad Misr has not joined ISIS.
---------------------------------------------------------------------------
  <bullet> ISIS gained a significant footing in West Africa by merging 
        with Boko Haram earlier this year.--The first indications of 
        the ISIS-Boko Haram relationship could be seen in the latter's 
        propaganda, which has been typically poor. Over the past 
        several months, Boko Haram's propaganda became significantly 
        better, showing multiple signs of ISIS's influence. ISIS likely 
        sent a team to Nigeria to improve Boko Haram's media 
        capabilities and to negotiate the alliance. Boko Haram now 
        calls itself the Islamic State in West Africa, or the Islamic 
        State's Province in West Africa.
  <bullet> In Algeria, a small group of AQIM commanders has defected to 
        ISIS.--Prior to their defection, virtually no one had even 
        heard of them. However, ISIS's Algerian arm has already 
        committed some attacks, including the beheading of a French 
        hostage last year.\20\
---------------------------------------------------------------------------
    \20\ Ishaan Tharoor, ``Islamic State-linked group beheads French 
national in Algeria,'' The Washington Post, September 24, 2014; (http:/
/www.washingtonpost.com/blogs/worldviews/wp/2014/09/24/islamic-state-
linked-group-beheads-french-national-in-algeria/).
---------------------------------------------------------------------------
  <bullet> ISIS's ``provinces'' in Africa are part of an international 
        network, so their operations are not confined to the 
        continent.--For instance, Libya and Tunisia have probably 
        contributed more jihadists, on a per capita basis, to the jihad 
        in Iraq and Syria than any other countries. This facilitation 
        pipeline has existed since the height of the Iraq War. ISIS has 
        used this recruiting network to build its presence in North 
        Africa by sending some key leaders and fighting units back to 
        their home countries. Saudis, Yemenis, and other nationalities 
        have also been identified as being among ISIS's main leaders in 
        Libya.
  <bullet> ISIS's expansion in Africa is not just aimed at growing 
        support from local recruits, but is also part of its on-going 
        effort to attract foreign fighters from around the world.--
        Through mid-2014, the Islamic State was focused on recruiting 
        foreigners for its battles in Iraq and Syria. Since then, the 
        group has increasingly called for foreign fighters to join its 
        cause in African hotspots. When announcing its merger with Boko 
        Haram, for example, the Islamic State's spokesman specifically 
        called on new recruits to join the ``caliphate'' in West Africa 
        if they could not make the trip to the heart of the Middle East 
        or elsewhere. ``All Muslims, you should all come to your State, 
        for we are calling on you to mobilize for jihad,'' ISIS 
        spokesman Abu Muhammad al Adnani said in March. He continued: 
        ``We incite you and call upon you to immigrate for jihad and to 
        immigrate to your brothers in West Africa.''\21\ Just in the 
        past few days, a Libyan ISIS fighter released a message calling 
        on recruits to join him in North Africa. Similarly, there have 
        been some limited efforts to turn the Sinai into a destination 
        for foreign fighters.\22\
---------------------------------------------------------------------------
    \21\ SITE Intelligence Group, ``IS Spokesman Threatens Enemy to 
Convert or Be Subjugated, Accepts Boko Haram's Pledge of Allegiance,'' 
March 12, 2015.
    \22\ Thomas Joscelyn, ``Islamic State supporters advertise Sinai as 
jihadist destination,'' The Long War Journal, December 1, 2014; (http:/
/www.longwarjournal.org/archives/2014/12/islamic_state_suppor.php).
---------------------------------------------------------------------------
  <bullet> There is evidence that at least one potential American 
        recruit saw Libya as a viable destination for waging jihad on 
        behalf of ISIS.--The FBI has alleged that Specialist Hasan R. 
        Edmonds, a member of the Army National Guard in llinois, 
        intended ``to travel overseas and fight on behalf of'' ISIS. 
        The investigation allegedly revealed that Edmonds was willing 
        to join ISIS in North Africa. ``I am fine being in Egypt, Sham, 
        or Libya to be honest akhi [brother],'' the defendant said in 
        one conversation, according to the FBI. ``I just want to answer 
        the call.''\23\ Edmonds reportedly wanted to join ISIS's ranks 
        in Derna, Libya.\24\ Authorities have also charged Jonas 
        Edmonds, Hasan's cousin, with ``planning an attack at a 
        military base in Northern Illinois where Specialist Edmonds had 
        been training.''\25\ Of course, other Americans have been drawn 
        to ISIS in Iraq and Syria.\26\ There is a possibility that more 
        of them will seek out jihad in Africa instead.
---------------------------------------------------------------------------
    \23\ See Affidavit of FBI Special Agent Morgan A. Spurlock, March 
25, 2015. The affidavit can be accessed online at: http://
www.washingtonpost.com/r/2010-2019/WashingtonPost/2015/03/26/National-
Security/Graphics/Edmonds%20Complaint.pdf.
    \24\ Michael S. Schmidt, ``National Guardsman Accused of Trying to 
Join ISIS in Libya,'' The New York Times, March 26, 2015; (http://
www.nytimes.com/2015/03/27/us/guardsman-accused-of-trying-to-join-isis-
in-libya.html).
    \25\ Ibid.
    \26\ Just days ago, authorities charged six Somali-Americans with 
seeking to join ISIS. See Scott Shane, ``6 Minnesotans Held in Plot to 
Join ISIS,'' The New York Times, April 20, 2015; (http://
www.nytimes.com/2015/04/21/us/6-somali-americans-arrested-in-isis-
recruiting-case.html).
---------------------------------------------------------------------------
  <bullet> A notorious terrorist who helped recruit the 9/11 suicide 
        pilots has reportedly helped ISIS grow its footprint in 
        Egypt.--According to a credible report, Mohammed Zammar, who 
        helped recruit al-Qaeda's Hamburg cell for the 9/11 plot, has 
        joined ISIS. Zammar had been imprisoned by the Assad regime in 
        Syria, but was freed as part of a prisoner exchange with ISIS. 
        In return for securing his freedom, Zammar joined ISIS and 
        reportedly helped the organization woo Ansar Bayt al Maqdis in 
        the Sinai to its cause. Zammar even traveled to the Sinai to 
        close the deal.\27\ This is troubling because it means that a 
        jihadist who is adept at recruiting Westernized jihadists is 
        traveling freely. It is possible that Zammar could once again 
        help recruit young jihadists for a special operation in the 
        West.
---------------------------------------------------------------------------
    \27\ Bruce Riedel, ``Baghdadi vs. Zawahri: Battle for Global 
Jihad,'' Al-Monitor, December 1, 2014; (http://www.usnews.eom/news/
articles/2014/12/01/baghdadi-vs-zawahri-battle-for-global-jihad).
---------------------------------------------------------------------------
               overview of al-qaeda's presence in africa
    While ISIS gets most of the headlines these days, al-Qaeda is still 
a major player in Africa. In this section, I rely heavily on 
declassified documents captured in Osama bin Laden's compound to 
explain how al-Qaeda is structured in Africa.\28\ The bin Laden files 
demonstrate that al-Qaeda has a much more cohesive international 
infrastructure than is commonly believed. While that infrastructure has 
undoubtedly evolved, especially with the loss of some leaders, it is 
unwise to assume that it has been eliminated entirely. Indeed, there 
are multiple indications that the al-Qaeda bureaucracy established 
under bin Laden lives on. The following points will hopefully 
illuminate the threat posed by al-Qaeda's network inside the continent:
---------------------------------------------------------------------------
    \28\ All of the bin Laden files referenced in this section can be 
found on two websites: https://www.ctc.usma.edu/posts/letters-from-
abbottabad-bin-ladin-sidelined and http://www.scribd.- com/doc/
257160502/Bin-Laden-raid-documents.
---------------------------------------------------------------------------
  <bullet> Al-Qaeda has two official, regional branches in Africa: Al-
        Qaeda in the Islamic Maghreb (AQIM) and Shabaab in Somalia.--
        The leaders of both organizations have sworn bayat (oath of 
        allegiance) to al-Qaeda's senior leadership. The leaders of 
        both organizations remain openly loyal to Ayman al Zawahiri, 
        al-Qaeda's emir. While AQIM and Shabaab are often called al-
        Qaeda ``affiliates,'' al-Qaeda refers to them as ``regions'' or 
        ``branches.'' Osama bin Laden also used the phrase ``regional 
        areas'' to describe al-Qaeda's presence in various places.\29\ 
        This terminology helps to better understand how al-Qaeda is 
        actually organized. Each regional emir oversees al-Qaeda's 
        efforts in his designated area. So, AQIM emir Abu Musab Abdel 
        Wadoud (a.k.a. Abdelmalek Droukdel) is in charge of al-Qaeda's 
        efforts in North Africa, west of Egypt, stretching down into 
        Mali. Shabaab's emir, Ahmed Diriye (a.k.a. Sheikh Ahmad Umar 
        and Abu Ubaidah), is generally in charge of al-Qaeda's efforts 
        in Somalia and East Africa.
---------------------------------------------------------------------------
    \29\ SOCOM-2012-0000019. This is a letter written by Osama bin 
Laden in May 2010 and addressed to Atiyah Abd al Rahman. Bin Laden 
wrote, ``We are now in a new phase of assessing Jihad activities and 
developing them beyond what they were in the past in two areas, 
military activity and media releases. Our work in these two areas is 
broad and sweeping, encompassing the headquarters and regional areas.''
---------------------------------------------------------------------------
  <bullet> Al-Qaeda designates certain operatives to work on what it 
        calls ``external operations,'' or ``external work,'' which 
        includes spectacular terrorist attacks against Western 
        interests.--Osama bin Laden ordered al-Qaeda's regional emirs, 
        including the head of AQIM, to coordinate their efforts with 
        the deputies he put in charge of al-Qaeda's ``external work.'' 
        The al-Qaeda deputy in charge of ``external operations'' from 
        2010 until his capture in September 2011 was Yunis al 
        Mauritani. Al Mauritani was recently sentenced to a lengthy 
        prison in his home country. Bin Laden set forth a specific 
        chain of command to oversee ``external operations.'' Yunis al 
        Mauritani reported to Atiyah Abd al Rahman (then al-Qaeda's 
        general manager), who answered to bin Laden himself.
    In his letters to Rahman, bin Laden stressed that each of al-
        Qaeda's ``regions'' must coordinate all ``external work'' with 
        his deputies. He even wanted Rahman to inform ``the brothers in 
        Yemen'' (AQAP) ``that working in the sea, even within the 
        territorial waters of the [Arabian] Peninsula, is to be 
        considered external work that requires coordination with 
        you.''\30\ In another declassified document, bin Laden made it 
        clear that al Mauritani was ``in-charge of the external 
        operations in Africa, except the Islamic Maghreb states, 
        starting from Libya to Mauritania, which is under the control 
        of brother Abu Musa'b 'Abd-al-Wadud [the emir of AQIM], and the 
        African horn, which is under the control of the Emir of Al-
        Shabaab Mujahideen Movement.''\31\
---------------------------------------------------------------------------
    \30\ SOCOM-2012-0000019, p. 33.
    \31\ Government Exhibit 427 in the trial of Abid Naseer. The letter 
is addressed to ``Hajji Uthman,'' who is likely Saeed al Masri, al-
Qaeda's general manager at the time. It was presumably authored by bin 
Laden. The context suggests it was written sometime after December 
2009. The letter can be found here: http://www.scribd.com/doc/
2571605Q2/Bin-Laden-raid-documents.
---------------------------------------------------------------------------
  <bullet> Osama bin Laden ordered each of al-Qaeda's branches, 
        including AQIM in Africa, to identify recruits capable of 
        launching attacks inside the United States.--``It would be nice 
        if you would ask the brothers in all regions if they have a 
        brother distinguished by his good manners, integrity, courage, 
        and secretiveness, who can operate in the U.S.,'' bin Laden 
        wrote to his top manager, Atiyah Abd al Rahman, in May 
        2010.\32\ Bin Laden explained that an operative selected to 
        attack the United States should be able to ``live there, or it 
        should be easy for him to travel there.''\33\ And each regional 
        emir ``should tell us this without taking any action and also 
        tell us whether or not [the chosen operative] is willing to 
        conduct a suicide operation,'' bin Laden wrote.\34\ Bin Laden 
        continued: ``It would be nice if you [Rahman] would send two 
        messages--one to Brother Abu Mus'ab 'Abd-al-Wadud [the emir of 
        AQIM], and the other to Brother Abu Basir Nasir al-Wuhayshi 
        [the emir of AQAP]--and ask them to put forward their best in 
        cooperating with Shaykh Yunis in whatever he asks of 
        them.''\35\ Al-Qaeda's founder wanted AQIM to help pay for the 
        operations: ``Hint to the brothers in the Islamic Maghreb that 
        they provide [Yunis al Mauritani] with the financial support 
        that he might need in the next six months, to the tune of 
        approximately 200,000 euros.''\36\
---------------------------------------------------------------------------
    \32\ SOCOM-2012-0000019, p. 32.
    \33\ Ibid.
    \34\ Ibid.
    \35\ Ibid.
    \36\ Ibid.
---------------------------------------------------------------------------
  <bullet> Some of al-Qaeda's most senior leaders, including those 
        tasked with overseeing external operations, have come from 
        Africa.--Saleh al Somali was al-Qaeda's external operations 
        chief until his death in late 2009. Somali's jihadist pedigree 
        stretched back to al-Qaeda's earliest efforts in eastern 
        Africa, when the terror organization trained Somali militia to 
        attack American forces. At the time of his death, Somali's 
        close ties to Shabaab were considered especially problematic, 
        given Shabaab's ability to recruit Americans.\37\
---------------------------------------------------------------------------
    \37\ Bill Roggio, ``Al Qaeda's external operations chief thought 
killed in US strike in Pakistan,'' The Long War Journal, December 11, 
2009; (http://www.longwarjournal.org/archives/2009/12/
al_qaedas_external_o.php).
---------------------------------------------------------------------------
    The aforementioned Yunis al Mauritani was al-Qaeda's external 
        operations chief from 2010 until his capture in 2011. Al 
        Mauritani ``participated in the formation'' of AQIM.\38\ He 
        joined the Salafist Group for Call and Combat (GSPC), AQIM's 
        predecessor, in 2001 and was sent by GSPC's leadership to 
        cement their deal with al-Qaeda in 200 7.\39\ In 2010, he was 
        in charge of a plan, backed by bin Laden, ``to ostensibly 
        damage the economy of Europe.''\40\
---------------------------------------------------------------------------
    \38\ U.S. Treasury Department, ``Treasury Targets Three Senior Al-
Qa'ida Leaders,'' September 7, 2011; (http://www.treasury.gov/press-
center/press-releases/Pages/tgl289.aspx).
    \39\ Ibid.
    \40\ Ibid.
---------------------------------------------------------------------------
    The biographies of terrorists such as Somali and Mauritani show 
        that al-Qaeda has used its presence in Africa to build a deep 
        roster of talent.
  <bullet> Senior al-Qaeda operatives embedded within Shabaab's ranks 
        have planned attacks in the West.--As I testified before this 
        committee in July 2011, senior al-Qaeda operatives have held 
        some of Shabaab's most important positions since its earliest 
        days.\41\ And these operatives have been responsible for 
        plotting attacks against Western and other foreign interests. 
        One of these leaders, Fazul Abdullah Mohammed, was killed in 
        2011. Authorities found plans for attacking London in Fazul's 
        possession.\42\ A group known as the ``London Boys'' was 
        trained by Fazul and reportedly tasked with executing attacks 
        in the United Kingdom.\43\
---------------------------------------------------------------------------
    \41\ http://homeland.house.gov/sites/homeland.house.gov/files/
Testimony%20Joscelyn_O.pdf
    \42\ Michelle Shephard, ``Star Exclusive: Documents found on body 
of Al Qaeda's African leader detail chilling plans for kidnapping, 
attacks,'' The Toronto Star, July 11, 2012; (http://www.thestar.com/
news/world/2012/07/11/star_exclusive_documents_found_on_body_- 
of_al_qaedas_african_leader_detail_chilling_plans_for_kid- 
napping_attacks.html).
    \43\ ``London `sleeper cell' told to carry out wave of terror 
attacks by Bin Laden before his death,'' The Daily Mail (UK), May 15, 
2011; (http://www.dailymail.co.uk/news/article-1387332/Osama-Bin-Laden-
dead-London-sleeper-cell-told-carry-attacks-death.html).
---------------------------------------------------------------------------
  <bullet> AQAP's leaders are now al-Qaeda's general management team 
        and they have worked closely with Shabaab, as well as with 
        AQIM.--Given that AQAP has led al-Qaeda's attempts to attack 
        the U.S. homeland in recent years, it is possible that the 
        group will seek to employ al-Qaeda's African assets against the 
        West. In previous testimony, I highlighted the close ties 
        between Shabaab and AQAP.\44\ Since that time, AQAP's emir, 
        Nasir al Wuhayshi, was named al-Qaeda's global general 
        manager.\45\ This role gives him broad power across all of al-
        Qaeda's branches. (Indeed, this is the same position that was 
        held by Atiyah Abd al Rahman, who is discussed above.) Al-Qaeda 
        documents first published by the Associated Press also show 
        that Wuhayshi has been in close contact with the leadership of 
        AQIM.\46\
---------------------------------------------------------------------------
    \44\ http://homeland.house.gov/sites/homeland.house.gov/files/
Testimony%20Joscelyn_T30.- pdf.
    \45\ Bill Roggio and Thomas Joscelyn, ``AQAP's emir also serves as 
al-Qaeda's general manager,'' The Long War Journal, August 6, 2013; 
(http://www.longwarjournal.org/archives/2013/08/
aqap_emir_also_serve.php).
    \46\ http://www.longwarjournal.org/images/al-qaida-papers-how-to-
run-a-state.pdf.
---------------------------------------------------------------------------
  <bullet> In addition to its two official branches, there are a number 
        of other jihadist groups in Africa that are part of al-Qaeda's 
        international network.--The most significant organizations 
        include: Ajnad Misr (Egypt), Ansar al Din (Mali), Ansar al 
        Sharia Libya, Ansar al Sharia Tunisia (which has been inactive 
        of late), Ansaru (Nigeria), Al Mourabitoun (North Africa and 
        Mali) and the Uqba bin Nafi Brigade (Tunisia). Just recently, 
        another new group called Al Muhajiroun (the ``Emigrants of East 
        Africa'') was established. In its founding video, the group 
        says it ``owes allegiance'' to the emir of Shabaab and Ayman al 
        Zawahiri.

    Mr. King. Thank you, Mr. Joscelyn.
    Our next witness, Dr. Daniel Byman, is director of research 
and a senior fellow in the Center for Middle East Policy at the 
Brookings Institution. His research focuses on counterterrorism 
and Middle East security. Dr. Byman is a professor in 
Georgetown University's security studies program, and he also 
served as a staff member on the 9/11 Commission and worked for 
the U.S. Government.
    So, Dr. Byman, you are recognized. Thank you for being 
here.

STATEMENT OF DANIEL BYMAN, RESEARCH DIRECTOR, CENTER FOR MIDDLE 
 EAST POLICY, CENTER FOR SECURITY STUDIES, BROOKINGS INSTITUTE

    Mr. Byman. Thank you, Mr. Chairman.
    Thank you, Mr. Higgins, and other Members of the 
subcommittee, and Ms. Wilson. Let me add my thanks to those of 
my fellows here for the opportunity to testify.
    My testimony focuses on comparing al-Qaeda and the Islamic 
State, with some emphasis on Africa. Two things I would like to 
leave you with.
    One is that as rightly concerned as we are about the 
Islamic State, there is one person who is more concerned, and 
that is Ayman al-Zawahiri. This is a fundamental fight within 
the jihadist movement, and it is causing huge problems for 
them, as well.
    The second is that the Islamic State poses a very serious 
threat, but the threat is primarily regional and to U.S. 
interests in the region, while al-Qaeda and the core still 
aims, as a primary goal, to attack the U.S. homeland.
    The Islamic State evolved out of civil war, and civil wars 
in Iraq and Syria in particular, and its tactics reflect this. 
It seeks to conquer.
    So if you look at how it is armed, it uses artillery, it 
uses mass forces, it even uses tanks and MANPADS. It sweeps 
into new areas with its army and it tries to defend them and 
then expand.
    When it uses terrorism in this context, it is usually part 
of revolutionary war. It is trying to undermine support for the 
state; it is trying to destroy morale in the police forces; it 
is trying to create a sectarian backlash; it is trying to use 
terrorism to further its goals regionally.
    A lot of its activities--at least the ones that I think we 
find most important--are part of its rather twisted model of 
governance. So this is rape, this is beheading, this is the use 
of symbolic crucifixions. It does this, in its eyes, to purify 
the community.
    This is something that Ayman Zawahiri a decade ago, he 
chastised Iraqi jihadists for exactly this sort of brutality. 
He said it is going to backfire.
    Somewhat incredibly, the Islamic State's lesson from Iraq 
was that they weren't brutal enough. From their point of view, 
controlling territory is the key. It is the key ideologically; 
you can't have a caliphate without it. It inspires others.
    But also, its strategy is to build on this territory and 
expand. It is a very different model from al-Qaeda.
    Both of them care about expansion, though, outside their 
core areas. After 9/11 al-Qaeda began to create affiliates and 
to forge alliances with existing groups, and now the Islamic 
State is playing this game. Wherever there is a call to jihad 
there is a rivalry, so we see this in Afghanistan and Algeria, 
we see it in Libya, we see it in Pakistan, Sinai, Yemen.
    Al-Qaeda affiliates have actually done rather well in 
recent months, it is worth pointing out. In Yemen they have 
been taking advantage of the chaos there. In Syria we have 
recently seen a relatively major advance by al-Qaeda's 
affiliate, Jabhat al-Nusra.
    But the Islamic State has gained support from a number of 
important groups, especially in Africa: Boko Haram, Ansar Bayt 
al-Maqdis in Egypt. Also, it recognized in March 2015 several 
provinces, including in Libya, where the Islamic State has 
devoted considerable resources. It is still unclear what it 
exactly means to be an Islamic State province.
    When you were an al-Qaeda affiliate, usually it meant you 
shifted primarily from local attacks to ones that involved 
Western or international attacks in your region, as well as a 
more regional emphasis. Only one, al-Qaeda in the Arabian 
Peninsula, prioritized attacks on the United States.
    The Islamic State's focus remains the Muslim world, and by 
taking on this label, groups seem to want the--for lack of a 
better term, the kind of sexiness of the Islamic State brand. 
It is exciting and dynamic, and they want to bring it.
    Now, for now the momentum is on the Islamic State's side. 
It looks like a winner, and it is taking on what it considers 
apostates, which is a very popular trend within the broader 
jihadist movement. It is presenting an image of Islamic 
government that al-Qaeda can't match.
    But the Islamic State's success is tied to its fate in Iraq 
and Syria. It is tied to the Islamic State, and if it suffers 
significant battlefield reverses, its reputation, its image 
will be significantly hurt.
    The good news is that for now, at least--and I stress for 
now--the Islamic State has not actively targeted the U.S. 
homeland. Its emphasis has been on consolidating its state, so 
when it wants foreigners, it wants them to come and fight for 
it.
    It emphasizes its role in the Muslim world, and Western 
security services have been on very high alert to this. They 
are not going to be caught napping. That doesn't mean they will 
be perfect, but it is not going to be a surprise.
    The bad news is that a lot of the Islamic State's effect 
has been the Muslim world--worsening sectarianism there. There 
is a significant chance that there will be some young men, in 
particular, inspired by the Islamic State who do lone-wolf 
attacks. They might have never met a real Islamic State member, 
but they might nevertheless attack because they are inspired by 
it.
    I will emphasize just in closing the importance of military 
efforts for both the drone campaign against al-Qaeda and the 
broader military campaign against the Islamic State to diminish 
its appeal.
    I will share the remarks of others that the threat to U.S. 
personnel overseas is considerable. I don't think the threat 
level has changed, but I think the likelihood of a particularly 
gruesome death has grown because of how the Islamic State 
fights, and that has political ramifications.
    I will stress that there is a need to resource intelligence 
services because this is a growing and metastasizing threat, 
and one that needs considerable attention.
    Thank you very much.
    [The prepared statement of Mr. Byman follows:]
                   Prepared Statement of Daniel Byman
    Chairman King, Ranking Member Higgins, distinguished Members of the 
subcommittee, and subcommittee staff, thank you for the opportunity to 
testify today.
    The Islamic State's influence and model are spreading. Even in many 
Muslim countries where the Islamic State does not have a strong 
presence, its rise is radicalizing their populations, fomenting 
sectarianism, and making a troubled region worse.\1\ The Islamic 
State's successes in Syria and Iraq alarmed many observers in 
Washington and prompted the Obama administration to overcome its 
longstanding hesitation to become more militarily involved in Iraq and 
Syria. But there is one person for whom the Islamic State's rise is 
even more frightening: Ayman al-Zawahiri. Although the al-Qaeda leader 
might be expected to rejoice at the emergence of a strong jihadist 
group that delights in beheading Americans (among other horrors), in 
reality the Islamic State's rise risks al-Qaeda's demise. When Islamic 
State leader Abu Bakr al-Baghdadi rejected al-Qaeda's authority and 
later declared a caliphate, he split the always-fractious jihadist 
movement. The two are now competing for more than the leadership of the 
jihadist movement: They are competing for its soul.
---------------------------------------------------------------------------
    \1\ This testimony draws heavily on my work with Jennifer R. 
Williams, particularly ``ISIS vs. al-Qaeda: Jihadism's Global Civil 
War,'' The National Interest (February/March 2015), http://
nationalinterest.org/feature/isis-vs-al-qaeda-jihadism%E2%80%99s-
global-civil-war-12304, and my forthcoming book, al-Qaeda, the Islamic 
State, and the Global Jihadist Movement: What Everyone Needs to Know 
(Oxford, 2015).
---------------------------------------------------------------------------
    Who will emerge triumphant is not clear. However, the implications 
of one side's victory or of continuing division are profound for the 
Muslim world and for the United States, shaping the likely targets of 
the jihadist movement, its ability to achieve its goals, and the 
overall stability of the Middle East. The United States can exploit 
this split, both to decrease the threat and to weaken the movement as a 
whole.
    My testimony today will focus on comparing al-Qaeda and the Islamic 
State. I argue that al-Qaeda and its affiliates remain a threat to the 
U.S. homeland, while the Islamic State's danger is more to the 
stability of the Middle East and U.S. interests overseas. Much of their 
rivalry involves a competition for affiliates, with both trying to 
spread their model and in al-Qaeda's case to ensure its operational 
relevance. For now the Islamic State's focus is primarily on Iraq and 
Syria and to a lesser degree on other states in the Muslim world, 
particularly Libya. In the United States and in Europe it may inspire 
``lone wolves,'' but it is not directing its resources to attack in 
these areas, and security services are prepared for the threat. Al-
Qaeda is weaker and less dynamic than the Islamic State, but the former 
remains more focused on attacking the United States and its Western 
allies.
    My testimony is organized into four sections. I first offer some 
general background on the origins of al-Qaeda and the Islamic State. I 
then discuss the threat profiles for each group, assessing both their 
strategies and tactics. The third section looks at the struggle to win 
over affiliate groups in the Muslim world. I conclude my testimony by 
discussing the policy implications and recommendations for the United 
States.
         the diverse origins of al-qaeda and the islamic state
    Al-Qaeda emerged out of the anti-Soviet jihad in Afghanistan in the 
1980s. As the Soviets prepared to withdraw, Osama bin Laden and a few 
of his close associates--high on their perceived victory over the 
mighty Soviet Union--decided to capitalize on the network they had 
built to take jihad global. Bin Laden's vision was to create a vanguard 
of elite fighters who could lead the global jihad project and bring 
together the hundreds of small jihadist groups struggling, often 
feebly, against their own regimes under a single umbrella. By the mid-
1990s, he wanted to reorient the movement as a whole, focusing it on 
what he saw as the bigger enemy underwriting all these corrupt local 
regimes: The United States. For local jihadists, pledging allegiance to 
bin Laden and adopting the al-Qaeda brand meant obtaining access to a 
wide range of assets: Money, weapons, logistical support, expertise, 
and, of course, training--al-Qaeda training camps were the Ivy Leagues 
of jihadist education.
    The 1998 attacks on two U.S. embassies in Africa, and of course 9/
11, made al-Qaeda's brand a household name. The attacks demonstrated 
the power, capabilities, reach, and sheer audacity of the organization. 
But although the 9/11 attacks electrified the global jihadist movement 
and raised al-Qaeda's profile on the global stage, the U.S. 
counterterrorism response that followed was devastating to both al-
Qaeda and the broader movement it purported to lead. Over the next 
decade, the United States relentlessly pursued al-Qaeda, targeting its 
leadership, disrupting its finances, destroying its training camps, 
infiltrating its communications networks, and ultimately crippling its 
ability to function. It remained a symbol of the global jihadist 
movement, but its inability to successfully launch another major attack 
against the United States meant that symbol was becoming less powerful. 
The death of the charismatic bin Laden and the ascension of the much 
less compelling Ayman al-Zawahiri to the top leadership position 
further diminished the power of the al-Qaeda brand.
    The Islamic State began as an Iraqi organization, and this legacy 
shapes the movement today. Jihadist groups proliferated in Iraq after 
the 2003 U.S. invasion, and many eventually coalesced around Abu Musab 
al-Zarqawi, a Jordanian jihadist who spent time in Afghanistan in the 
1990s and again in 2001. Though bin Laden gave Zarqawi seed money to 
start his organization, Zarqawi at first refused to swear loyalty to 
and join al-Qaeda, as he shared only some of bin Laden's goals and 
wanted to remain independent. After months of negotiations, however, 
Zarqawi pledged his loyalty, and in 2004 his group took on the name 
``al-Qaeda in Iraq'' to signify this connection. Bin Laden got an 
affiliate in the most important theater of jihad at a time when the al-
Qaeda core was on the ropes, and Zarqawi got al-Qaeda's prestige and 
contacts to bolster his legitimacy.
    Yet even in its early days the group bickered with the al-Qaeda 
leadership. Zawahiri and bin Laden pushed for a focus on U.S. targets 
while Zarqawi (and those who took his place after his death in 2006 
from a U.S. air strike) emphasized sectarian war and attacks on Sunni 
Muslims deemed apostates, such as those who collaborated with the 
Shi'a-led regime. Zarqawi and his followers also acted with incredible 
brutality, making their name with gruesome beheading videos--a tactic 
that its successor organizations would also use to shock and generate 
publicity. Zarqawi also kept his focus on Iraq and its immediate 
environs. Despite the fears of U.S. and European security officials, 
Iraq did not prove an Afghanistan-like incubator for attacks on the 
U.S. homeland and the West.
    Al-Qaeda in Iraq's indiscriminate violence--including against its 
fellow Sunnis--eventually led to a backlash from the Sunni tribes that, 
when combined with the 2006 U.S. troop ``surge'' in Iraq, hit the group 
hard. For al-Qaeda, this was a broader disaster, with the Iraqi group's 
setbacks and abuses tarnishing the overall jihadist cause. Indeed, in 
private, al-Qaeda spokesman Adam Gadahn recommended to bin Laden that 
al-Qaeda publicly ``sever its ties'' with al-Qaeda in Iraq because of 
the group's sectarian violence.
    When the Syria conflict broke out in 2011 and electrified the 
Muslim world, Zawahiri urged Iraqi jihadists to take part in the 
conflict, and Baghdadi--who had taken over leadership of the Iraqi 
group in 2010--initially sent small numbers of fighters into Syria to 
build an organization. Syria was in chaos, and the Iraqi jihadists 
established secure bases of operations there, raising money and winning 
new recruits to their cause. Their ambitions grew along with their 
organization, expanding to include Syria as well as Iraq. Iraqi 
jihadists, by 2013 calling themselves the Islamic State of Iraq and 
Syria (ISIS or ISIL) to reflect their new, broader orientation, also 
faced less pressure in Iraq with the departure of U.S. forces at the 
end of 2011. In Syria, the group took over swaths of territory, 
benefiting as the Syrian regime focused on more moderate groups while 
the Syrian opposition as a whole remained fractious. At the same time, 
Iraqi prime minister Nouri al-Maliki put in place a series of 
disastrous policies to bolster support among his Shi'a base, 
systematically excluding Iraqi Sunnis from power. Thus Baghdadi's 
organization steadily shored up popular support, regained its 
legitimacy in Iraq, built a base in Syria, and replenished its ranks.
    Although the Syria conflict revived the Iraqi jihadist movement, it 
also eventually led it to split with the al-Qaeda leadership. Zawahiri 
encouraged the Iraqi affiliate to move into Syria, but he also wanted 
to establish a separate group under separate command, with Syrians in 
the lead to give it a local face. Zawahiri probably also wanted a 
separate group given his past doubts on AQI's loyalty and wisdom. 
Jabhat al-Nusra was thus created as the Syrian spin-off. But whereas 
Zawahiri saw this as a positive development, Baghdadi and other Iraqi 
leaders feared the group had simply gone native and become too 
independent, focusing too much on Syria and ignoring Iraq and the 
original leadership. In an attempt to rein it in and reestablish Iraqi 
authority over the group, Baghdadi declared Jabhat al-Nusra part of his 
organization. Nusra leaders balked, pledging a direct oath to Zawahiri 
as a way of retaining its independence. Zawahiri found this lack of 
unity frustrating and in late 2013 ordered Baghdadi to accept this 
decision and focus on Iraq. Baghdadi refused, and declared Jabhat al-
Nusra subordinate to him: A move that sparked a broader clash in which 
thoughts of fighters from both groups died. In February of 2014, 
Zawahiri publicly disavowed Baghdadi's group, formally ending their 
affiliation.
    In June 2014, Baghdadi's forces shocked just about everyone when 
they swept across Iraq, capturing not only large parts of Iraq's remote 
areas but also major cities like Mosul and Tikrit, important resources 
like hydroelectric dams and oil refineries, and several strategic 
border crossings with Syria. Within a month, the group--now calling 
itself the Islamic State--would officially declare the establishment of 
a caliphate in the territory under its control, naming Baghdadi the 
caliph and ``leader for Muslims everywhere.''\2\ Almost overnight, 
Baghdadi went from being an annoying thorn in Zawahiri's side to a 
serious challenger to his authority and a threat to his organization's 
position as the vanguard of the global jihadist movement. Thousands 
more foreign fighters, inspired by the stunning success of the Islamic 
State and the bold declaration of a caliphate, flocked to Syria and 
Iraq to join the fight.
---------------------------------------------------------------------------
    \2\ ``ISIS jihadists declare `Islamic caliphate','' Al Arabiya, 
June 29, 2014, http://english.alarabiya.net/en/News/2014/06/29/ISIS-
jihadists-declare-caliphate-.html.
---------------------------------------------------------------------------
                       differing threat profiles
    The dispute between the Islamic State and al-Qaeda is more than 
just a fight for power within the jihadist movement. The two 
organizations differ on the main enemies, strategies, tactics, and 
other fundamental concerns. As a result, the threat they pose to the 
United States differs as well.
    Although the ultimate goal of al-Qaeda is to overthrow the corrupt 
``apostate'' regimes in the Middle East and replace them with ``true'' 
Islamic governments, al-Qaeda's primary enemy is the United States, 
which it sees as the root cause of the Middle East's problems. By 
targeting the United States, al-Qaeda believes it will eventually 
induce the United States to end support for these Muslim state regimes 
and withdraw from the region altogether, thus leaving the regimes 
vulnerable to attack from within. Al-Qaeda considers Shi'a Muslims to 
be apostates but sees their killing to be too extreme, a waste of 
resources, and detrimental to the broader jihadist project. Yet 
Zawahiri cannot openly oppose sectarianism: It is too popular, and with 
the sectarian slaughter in the Syrian civil war, too many in the Muslim 
world find it compelling.
    The Islamic State does not follow al-Qaeda's ``far enemy'' 
strategy, preferring instead the ``near enemy'' strategy, albeit on a 
regional level. As such, the primary target of the Islamic State has 
not been the United States, but rather ``apostate'' regimes in the Arab 
world--namely, the Asad regime in Syria and the Abadi regime in Iraq. 
Like his predecessors, Baghdadi favors purifying the Islamic community 
first by attacking Shi'a and other religious minorities as well as 
rival jihadist groups. The Islamic State's long list of enemies 
includes the Iraqi Shi'a, the Lebanese Hizballah, the Yazidis (a 
Kurdish ethno-religious minority located predominantly in Iraq), and 
rival opposition groups in Syria (including Jabhat al-Nusra, the 
official al-Qaeda affiliate in Syria).
    Ostensibly in response to intervention by the United States and 
others in the conflict, Western civilians in the region (including 
journalists and humanitarian aid workers) have also become targets--
though the Islamic State saw them as hostile before the U.S. 
intervention. And now that American military advisers are on the ground 
in Iraq supporting the Iraqi military, the U.S. military has ostensibly 
become a primary target for the Islamic State, but the lack of troops 
within range diminishes this danger.
    Al-Qaeda has long used a mix of strategies to achieve its 
objectives. To fight the United States, al-Qaeda plots terrorism 
spectaculars to electrify the Muslim world (and get it to follow al-
Qaeda's banner) and to convince the United States to retreat from the 
Muslim world: The model is based on the U.S. withdrawals from Lebanon 
after Hizballah bombed the Marine barracks and U.S. embassy there and 
the ``Blackhawk Down'' incident in Somalia. In addition, al-Qaeda 
supports insurgents in the Islamic world to fight against U.S.-backed 
regimes (and U.S. forces in places like Afghanistan, where it hopes to 
replicate the Soviet experience). Finally, al-Qaeda issues a swarm of 
propaganda to convince Muslims that jihad is their obligation and to 
convince jihadists to adopt al-Qaeda's goals over their local ones.
    The Islamic State embraces some of these goals, but even where 
there is agreement in principle, its approach is quite different. The 
Islamic State's strategy is to control territory, steadily 
consolidating and expanding its position. Part of this is ideological: 
It wants to create a government where Muslims can live under Islamic 
law (or the Islamic State's twisted version of it). Part of this is 
inspirational: By creating an Islamic state, it electrifies many 
Muslims who then embrace the group. And part of it is basic strategy: 
By controlling territory it can build an army, and by using its army it 
can control more territory.
    The two groups' preferred tactics reflect these strategic 
differences. Al-Qaeda has long favored large-scale, dramatic attacks 
against strategic or symbolic targets: The attacks on the World Trade 
Center and the Pentagon on 9/11 are the most prominent, but the 1998 
bombings of the U.S. embassies in Kenya and Tanzania, the attack on 
U.S.S. Cole in the port of Aden in 2000, and plots like the 2005 
attempt to down over 10 transatlantic flights all show an emphasis on 
the spectacular. At the same time, al-Qaeda has backed an array of 
lesser terrorist attacks on Western, Jewish, and other enemy targets; 
trained insurgents; and otherwise tried to build guerrilla armies.
    Yet although al-Qaeda has repeatedly called for attacks against 
Westerners, and especially Americans, it has refrained from killing 
Westerners when it suited its purposes. Perhaps the most notable 
example of this is found in al-Qaeda's decision on multiple occasions 
to grant Western journalists safe passage into al-Qaeda safe havens and 
allow them to interview bin Laden face-to-face. Terrorism doesn't work 
if no one is watching, and in the days before YouTube and Twitter, al-
Qaeda needed Western journalists to bring its message to its target 
audience. Al-Qaeda often takes a similar approach to Western aid 
workers operating in its midst: On at least two occasions, senior 
leaders of the al-Qaeda-linked Jabhat al-Nusra implored the Islamic 
State to release Western aid workers the Islamic State had captured and 
were threatening to execute. The leaders of the al-Qaeda affiliate 
argued that Alan Henning and later Peter Kassig were innocent aid 
workers who were risking their lives to help ease the suffering of 
Muslims in Syria and that kidnapping and executing them was ``wrong 
under Islamic law'' and ``counter-productive.''\3\ Unfortunately, the 
Islamic State was not swayed by such arguments, and both men were 
horrifically executed.
---------------------------------------------------------------------------
    \3\ Tom Harper, ``Alan Henning: Al-Qaeda appealed to Isis to 
release British aid worker following kidnap,'' The Independent, April 
22, 2015, http://www.independent.co.uk/news/world/middle-east/alan-
henning-alqaeda-appealed-to-isis-to-release-british-aid-worker-
following-kidnap-9734598.html; Ruth Sherlock and Richard Spencer, 
``Senior al-Qaeda jihadist speaks out in defence of Peter Kassig,'' The 
Telegraph, October 22, 2014, http://www.telegraph.co.uk/news/worldnews/
islamic-state/11181229/Senior-al-Qaeda-jihadist-speaks-out-in-defence-
of-Peter-Kassig.html. The case of Peter Kassig was especially 
controversial, as it seems Kassig may have actually personally provided 
emergency medical care to Abu Omar Aqidi, the Jabhat al-Nusra leader 
who called on the Islamic State to release Kassig, as well as several 
other jihadists, and because Kassig had converted to Islam during his 
time working in Syria.
---------------------------------------------------------------------------
    The Islamic State evolved out of the civil wars in Iraq and Syria, 
and its tactics reflect this context. The Islamic State seeks to 
conquer; thus it deploys artillery, massed forces, and even tanks and 
MANPADS as it sweeps into new areas or defends existing holdings. 
Terrorism, in this context, is part of revolutionary war: It is used to 
undermine morale in the army and police, force a sectarian backlash, or 
otherwise create dynamics that help conquest on the ground. But it is 
an adjunct to a more conventional struggle.
    In territory it controls, the Islamic State uses mass executions, 
public beheadings, rape, and symbolic crucifixion displays to terrorize 
the population into submission and ``purify'' the community, and at the 
same time provides basic (if minimal) services: The mix earns them some 
support, or at least acquiescence due to fear, from the population. Al-
Qaeda, in contrast, favors a more gentle approach. A decade ago 
Zawahiri chastised the Iraqi jihadists for their brutality, correctly 
believing this would turn the population against them and alienate the 
broader Muslim community, and he has raised this issue in the current 
conflict as well. Al-Qaeda recommends proselytizing in the parts of 
Syria where its affiliate Jabhat al-Nusra holds sway, trying to 
convince local Muslims to adopt al-Qaeda's views rather than forcing 
them to do so. The Islamic State's lesson from Iraq, somewhat 
incredibly, is that it was not brutal enough.
                        the fight for affiliates
    Al-Qaeda and the Islamic State both profess to lead the jihadist 
cause throughout the Muslim world. After 9/11, al-Qaeda began to create 
affiliates or forge alliances with existing groups, expanding its range 
but at the same time exposing its brand to the misdeeds of local 
groups, as happened in Iraq.\4\ As part of its competition with the 
Islamic State, al-Qaeda has stepped up affiliation, establishing 
relationships with groups in the Caucasus, Tunisia, and India. The 
Islamic State is playing this game too, and wherever there is a call to 
jihad, there is a rivalry. Afghanistan, Algeria, Libya, Pakistan, 
Sinai, Yemen, and other Muslim lands are part of the competition.
---------------------------------------------------------------------------
    \4\ For more on affiliates and al-Qaeda, see Daniel Byman, 
``Breaking the Bonds between Al-Qa'ida and Its Affiliate 
Organizations'' (Brookings, 2012) http://www.brookings.edu//media/
research/files/papers/2012/7/alqaida%20terrorism%20byman/
alqaida%20terrorism%20by- man.pdf.
---------------------------------------------------------------------------
    Although attention is focused on the Islamic State, al-Qaeda 
affiliates have done well in recent months.\5\ In Yemen, AQAP has 
exploited the chaos there to take territory, freeing imprisoned 
militants and seizing arms. In Syria, al-Qaeda's affiliate Jabhat al-
Nusra has cooperated with other groups to take Idlib, an important 
advance, as well as other gains.
---------------------------------------------------------------------------
    \5\ For a nice review, see Daveed Gartenstein-Ross and Bridget 
Moreng, ``al-Qaeda Is Beating the Islamic State,'' Politico, April 14, 
2015.
---------------------------------------------------------------------------
    The Islamic State has gained support from a number of important 
jihadist groups. Boko Haram in Nigeria and Ansar Bayt al-Maqdis in 
Egypt both formally pledged allegiance to the Islamic State and are now 
considered official affiliates or ``provinces'' of the Islamic State; 
as of March 2015, the Islamic State has formally recognized seven 
provinces, including in Libya, from whence many of its foreign fighters 
hail, and in Yemen, where it is now in direct competition with al-Qaeda 
in the Arabian Peninsula (AQAP). In March, Islamic State supporters in 
Yemen bombed Houthi mosques, playing on the sectarian war narrative 
that the Islamic State has long emphasized and al-Qaeda has long sought 
to suppress--indeed, AQAP immediately issued a statement publicly 
disavowing any involvement in the mosque bombings. It is difficult, 
however, to gauge the overall level of Islamic State support. Al-Qaeda 
has historically been fairly quiet for a terrorist group when it comes 
to claiming and boasting of attacks, while the Islamic State often 
exaggerates its own prowess and role to the point of absurdity.
    What becoming an Islamic State ``province'' means in practice is 
difficult to determine. In the past, when an affiliate joined al-Qaeda, 
it usually took on more regional activities and went after more 
international targets in its region, but did not focus on attacks in 
the West. Only one affiliate--AQAP--prioritized striking the U.S. 
homeland and Europe. The Islamic State's focus remains expansion in the 
Muslim world, and for now its affiliates are likely to focus there. By 
taking on the Islamic State label, local groups seem to want to attach 
themselves to a brand that has caught the attention of jihadists world-
wide. They are more likely to embrace the Islamic State's barbarous 
tactics like beheadings as well as its sectarian orientation. In 
Afghanistan and Yemen, Islamic State-oriented groups have brutally 
attacked these countries' Shi'a.
                policy implications and recommendations
    For now the momentum is on the Islamic State's side. Unlike al-
Qaeda, it looks like a winner: Triumphant in Iraq and Syria, taking on 
the Shi'a apostates and even the United States at a local level, and 
presenting a vision of Islamic governance that al-Qaeda cannot match. 
Yet this ascendance may be transitory. The Islamic State's fate is tied 
to Iraq and Syria, and reverses on the battlefield--more likely now 
that the United States and its allies are more engaged--could over time 
reduce its appeal. Like its predecessor organization in Iraq, the 
Islamic State may also find that its brutality repels more than it 
attracts, diminishing its luster among potential supporters and making 
it vulnerable when the people suddenly turn against it.
    However, the Islamic State's triumphs so far have profound 
implications for U.S. counterterrorism. The good news is that the 
Islamic State is not targeting the American homeland--at least for now. 
Its emphasis is on consolidating and expanding its state, and even the 
many foreign fighters who have flocked to its banner are being used in 
suicide bombings or other attacks on its immediate enemies, not on 
plots back in the West. Western security services are on high alert 
against the Islamic State threat.
    The bad news is that the Islamic State is far more successful in 
achieving its goals than al-Qaeda has been: Like it or not, the Islamic 
State really is a ``state'' in that it controls territory and governs 
it. Its military presence is roiling Iraq and Syria and the threat it 
poses extends to Jordan, Saudi Arabia, Egypt, Libya, Yemen, and 
especially Lebanon. The thousands of foreign fighters under its banner 
are post a risk of greater regional instability at the very least, and 
U.S. officials legitimately fear they pose a counterterrorism problem 
for the West. Ideologically, the sectarianism it foments is worsening 
Shi'a-Sunni tension throughout the region. So the Islamic State is a 
much bigger threat to Middle East stability than al-Qaeda ever was.
    The Islamic State's impressive social media efforts and overall 
appeal also make it better able to mobilize ``lone wolves'' to attack 
in the West. Many of these individuals will have had little or no 
contact with the Islamic State as an organization, but they find its 
ideology and methods appealing and will act on their own. Ironically, 
some of these individuals may have preferred to go to Iraq and Syria, 
but Western disruption efforts make it easier for them to attack at 
home.
    The United States and its allies should try to exploit the fight 
between the Islamic State and al-Qaeda and, ideally, diminish them 
both. The infighting goes against what either organization claims to 
want, and it diminishes the appeal of jihad if volunteers believe they 
will be fighting the jihadist down the block rather than the Asad 
regime, Americans, Shi'a, or other enemies. Efforts to stop foreign 
fighters should stress this infighting. The Islamic State's social 
media strategy is also a propaganda weakness: Because the organization 
allows bottom-up efforts, it risks allowing the most foolish or 
horrific low-level member to define the group. Playing up its 
atrocities, especially against other Sunni Muslims, will steadily 
discredit the group.
    Military efforts matter tremendously beyond the immediate theater 
of operations. For al-Qaeda, the constant drone campaign has diminished 
the core in Pakistan and made it harder for it to exercise control over 
the broader movement. Zawahiri himself is an important target, as he is 
the last major figure of the original generation of al-Qaeda with a 
global profile, and he will not be easily replaced. For the Islamic 
State, defeat on the ground will do more to diminish its appeal than 
any propaganda measure. The Islamic State's self-proclaimed mission--
establishing and expanding a caliphate--is also a vulnerability. If it 
fails at this mission by losing territory, its luster will diminish.
    The threat to U.S. personnel overseas near conflict zones remains 
high. Al-Qaeda, its affiliates, and local jihadist groups have long put 
them in their crosshairs, and the Islamic State is likely to do the 
same. The overall level of risk remains roughly similar, but their 
manner of death if captured is likely to be more gruesome at the hands 
of the Islamic State.
    Because of the appeal and strength of both al-Qaeda affiliates and 
the Islamic State, programs to gather intelligence and develop the 
strength of local regimes (and at times substate groups when the regime 
is weak or hostile as in the case of Syria) are vital. These must be 
properly resourced and bureaucratically prioritized. At times U.S. 
personnel must be deployed in dangerous areas, taking on considerable 
risk. Particularly important is identifying potential areas of 
expansion for jihadist groups and working with allies to exert control, 
nipping problems in the bud. Nigeria, Libya, and Yemen are only a few 
countries where the problems steadily grew worse but attracted only 
limited U.S. attention. Because the quality of government matters as 
well as the amount of control a government exerts, the United States 
should also encourage political reform in such countries.
    Some degree of continued infighting between al-Qaeda and the 
Islamic State is the most likely outcome. As such, the United States 
should prepare to confront a divided adversary. The good news is that 
the fight within may consume most of our adversary's attention; the bad 
news is that anti-U.S. violence or high-profile attacks in the Middle 
East may become more intense as each side seeks to outmatch its rival. 
Yet while spikes in violence may occur, such infighting will undermine 
their ability to shape regional politics, diminish both movements' 
overall influence, and ultimately discredit jihadism in general.

    Mr. King. Doctor, thank you very much.
    I will begin my questioning.
    Mr. Joscelyn, in your testimony--I would ask the other two 
witnesses to comment, as well--you basically spoke of the 
directive that bin Laden had imposed on al-Qaeda affiliates in 
Africa to attack the United States, be ready to carry out 
external attacks. With bin Laden gone, even though that may 
still be al-Qaeda policy, do you feel it is as strictly 
enforced or expected as much now as it was under bin Laden?
    Mr. Joscelyn. Well, I will say this: Al-Qaeda has always 
been able to walk and chew gum at the same time. They have 
always had some small part of the resources devoted to coming 
after us while actually, if you investigate them throughout 
their whole history back to when--right through the founding, 
they devoted most of the resources to insurgency warfare, 
including the training in pre-9/11 Afghanistan.
    So they are always trying to spread their base, basically, 
across the globe. What I would say that has changed is that 
since bin Laden was killed, they have had more opportunities 
for that insurgency type of warfare, as Dr. Byman mentioned.
    It had some pretty stunning gains in Syria of late. But you 
can also see some areas in Africa where they have gained and, 
of course, in Yemen.
    I guess my message is that as their insurgency base 
spreads, we have a lot of historical examples that would also 
spread through that as a potential threat to us, because 
everywhere they go there is some part of their operation which 
is going to be devoted to coming after U.S. interests abroad 
and potentially against the U.S. homeland.
    I don't think that has changed under Ayman al-Zawahiri in 
his leadership of al-Qaeda. I think he was in lockstep--in 
fact, you can see in the bin Laden files he basically agrees 
with the whole strategy all along. So I think it is sort of the 
same modus operandi today.
    Mr. King. Dr. Pham.
    Mr. Pham. Mr. Chairman, I would agree with my friend, Mr. 
Joscelyn, and then just simply add the evidence is there with 
the groups that are affiliated with al-Qaeda. You have, for 
example, Shabaab--much has been made by some in the 
administration and others about the great successes defeating 
al-Shabaab in the so-called Somali model when in actuality, the 
military defeats were an inadvertent favor to the more radical 
leadership of Shabaab, which could now, freed from the 
constraints of having to govern parochial concerns within 
Somalia, have actually grown in their virulence as 
transnational groups.
    Just on the matter of al-Shabaab, I would cite the fact 
that between the Westgate attack in September 2013 and the 
Garissa University College attack this month, largely 
unreported in the Western media were some--more than 60 attacks 
with more than 400 victims. So these attacks are increasing, 
and one could say the same about al-Qaeda in the Islamic 
Maghreb, its splinter groups, et cetera. So the virulence 
certainly continues, sir.
    Mr. King. Dr. Byman.
    Mr. Byman. What I would stress, sir, is that I think the 
intention to attack the U.S. homeland remains strong, but the 
al-Qaeda core's capabilities have been hurt quite a bit. 
Several things--I mentioned the drone campaign. It makes it 
very hard for them to do command and control.
    Their leaders have to be hiding. There is a reason we 
haven't heard from Zawahiri in quite some time, and I think it 
is very hard for them to kind of exercise a global leadership 
the way they have in the past.
    Also, the intelligence liaison efforts are much stronger, 
and so there is coordination around the world. I don't want to 
say this is perfect, but if you look at, for example, the 
Charlie Hebdo attacks in Paris, one of the successes buried in 
this really horrible event was that U.S. intelligence was 
warning French intelligence about several of these individuals, 
saying that there was a Yemen connection. That is a tribute to 
the resources and the skill of the people involved.
    So my sense is that while Zawahiri would like nothing 
better than a high-profile attack on the United States, his 
desire has not led to success because of some significant blows 
his organization has taken.
    Mr. King. I have one question for each of you. Is there any 
nation state's government in Africa that you would say is 
likely to either collapse or be overrun or compromised by 
Islamic terrorists?
    I will start with Dr. Pham.
    Mr. Pham. Certainly one could already write off Libya as 
certainly a collapsed state, but on-going--right now we 
pretend, if you will, that we have a government in Somalia. In 
reality, we don't have a government.
    They never take quorum calls at the parliament because if 
they did they never could legally meet. So we pretend there is 
a government and, in fact, that hampers on a number of levels 
our ability to effectively deal with challenges there. So that 
is a collapsed government that we pretend is otherwise.
    I think the governments of the Sahel are very, very 
marginal. Again, we pretend there is a government in the 
Central African Republic, but that is a witch's brew.
    Chad, long-time dictator. It has contributed to the fight 
against Boko Haram, but on very brittle foundations. Niger is a 
democracy, a good ally, but they are in an impossible 
neighborhood, sandwiched between al-Qaeda in the Islamic 
Maghreb and other groups in Mali, the remnants of Boko Haram in 
Nigeria and Libya and Algeria, desperately in need of 
cooperation and assistance from us.
    Mali remains very fragile. The French staved off collapse 
by the intervention in 2013, but two-thirds of the country 
still are no-go zones and there are attacks on the U.N. 
peacekeepers today. So that region is entirely volatile.
    Mr. King. Mr. Joscelyn.
    Mr. Joscelyn. Yes. I was going to start with Mali, 
actually. I think Mali is the place where a large portion of 
the country is still very destabilized and under the control of 
jihadists, and they basically are running--what happened with 
the French-led intervention is that many of the forces melted 
away, as opposed to being killed off by Western forces, and 
lived to fight another day.
    So the situation there is precarious. I don't think that 
they are going to fall tomorrow, but there is certainly an on-
going threat there.
    The other country I would highlight is--and I don't think 
it is necessarily going to fall, but it is a fragile sort of--
one of the few success stories of the Arab Spring is Tunisia, 
which really requires a lot of international support and is 
getting support from the U.S. Government against the jihadist 
threat, because it really is a prominent threat in that 
country.
    Mr. King. Dr. Byman.
    Mr. Byman. I have nothing to add to my colleagues. I think 
they covered the landscape well.
    Mr. King. Thank you.
    With that, I recognize the gentleman from New York, the 
Ranking Member.
    Mr. Higgins. Thank you, Mr. Chairman.
    Al-Shabaab has demonstrated success in bombing urban 
centers, primarily in East Africa. Yet, the United States has a 
pretty significant Somali population. How likely is it that 
there would be a coordinated or lone-wolf attack on the 
American homeland by al-Shabaab?
    Mr. Joscelyn. I will say, you know, I can't say exactly how 
likely it is; it is always a possibility. I would say that the 
FBI and other U.S. Government services are obviously spending a 
lot of time trying to neutralize that possibility and counter 
it.
    But again, you know, I think one of the big things here 
messaging-wise is to understand that even the Somali community 
in Minnesota and elsewhere, they have been victimized by this, 
as well. Highlighting that and understanding that these guys 
who go off to fight for Shabaab are primarily going to kill 
Muslims in Somalia or Africans, and not U.S. forces, not 
Western forces, is a very strong, powerful message to sort of 
act as a deterrent for that sort of thing back here at home.
    In other words, you are not going to be celebrated as a 
hero; you are going to be celebrated as part of this violent 
ideology, which is killing, supposedly, your own kind.
    Mr. Pham. I would just add to that. The overwhelming 
majority, clearly, of Somali-Americans are opposed to this 
ideology and opposed to this violence. But the one thing about 
Shabaab that bears recalling, it is one of the few of the 
groups that we have discussed today that has shown consistently 
over time an ability to attract however small a minority and 
isolated group throughout a community--not just lone wolves, 
but networks of people.
    The arrests just a little over a week ago of six Somali-
Americans who were headed to the Islamic State, these were the 
same networks that sent people to al-Shabaab just a few years 
ago. So there is an organic network, and the convictions and 
prosecutions by Department of Justice and other law enforcement 
just underscores that there is, however, within a small 
minority, this group an organic network.
    Mr. Byman. At the risk of being seen as naive, I am 
actually a bit more optimistic on this question, I think, than 
many people. There is always a danger of lone wolves when you 
have a kind of broader jihadist mindset, but the people who 
have gone to Somalia so far we have not seen a strong desire of 
those going there to return and fight. What they have been 
trying to do is fight in Somalia and at times in the region.
    That is the cause; they have seen it as legitimate.
    There was a strong kind of anger at the United States a 
decade ago when this began because the United States was seen 
as secretly behind the Ethiopian invasion. That is not the 
focus today of the people going.
    So there is, again, a desire to go and fight, but it is not 
rooted in anti-Americanism. There will be some who return. Some 
of those will be radicalized. But so far, the FBI in particular 
has shown that they have these networks reasonably well 
penetrated.
    Mr. King. Gentleman yields back.
    The gentleman from Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Dr. Pham, we know from the 9/11 Commission that terrorists 
want two things: To find a way to enter the United States, and 
then to stay here. While recognizing the humanitarian crisis in 
areas ravaged by the Islamic State and overrun by al-Qaeda, we 
must also not forget that there are those that wish to do us 
harm and must, therefore, remain vigilant as to who we admit 
into the United States.
    Just this February FBI Assistant Director Michael Steinbach 
testified before the full Homeland Security Committee and 
expressed concern as to whether our Government has sufficient 
intelligence in Syria to properly vet potential refugees from 
that state. In your experience, does the United States have 
adequate intelligence to properly vet refugees applying from 
areas within Africa where al-Qaeda and the Islamic State are 
present and active?
    Mr. Pham. My experience is that our embassies in Africa as 
a whole are very under-resourced. The process for review of 
visas is very often--they try their best; I am not going to--
but the flood of applications versus what they have to process 
and the turnaround times, I know--I frequently hear from 
Foreign Service officers as well as people detailed from other 
Government agencies, as well as, often cases--some embassies 
spouses of Foreign Service officers are employed on temporary 
contracts just to process things. So the answer, sir, is, 
unfortunately, no.
    Mr. Barletta. Does the new alliance between Boko Haram and 
the Islamic State complicate United States intelligence-
gathering efforts in that region?
    Mr. Pham. Well, our intelligence efforts in Nigeria have 
been riddled with complications and difficulties really for 
quite some time. Part of it was relationships with the Nigerian 
government itself. Part of it is simply lack of resources.
    Just to give you an example, Nigeria is a country, sir, of, 
as you know, almost 180 million people. Yet, we have no 
diplomatic presence north of the capital of Abuja. So quite 
simply, we don't have the eyes and ears on the ground.
    Repeatedly, I think it is in the legislation--the foreign 
opps bill, once again to study placing a consulate in northern 
Nigeria, which would then become a base for reporting. But 
quite simply, we--large parts of Africa's most populous country 
are simply--we are blind to.
    Mr. Barletta. Finally, do you have a recommendation as to 
how the United States can protect itself from inadvertently 
admitting a sympathizer or a member from al-Shabaab or Boko 
Haram?
    Mr. Pham. Sir, I don't have a quick fix. What I do advocate 
is we need to put resources across the whole--certainly in the 
Department of State, but also homeland security, law 
enforcement agencies.
    Our analytical and intelligence capabilities in Africa are, 
quite simply, not up to the challenge that we face. That was 
even before sequestration.
    Mr. Barletta. Thank you.
    I yield back, Mr. Chairman.
    Mr. King. He yields back.
    Does Ranking Member have a motion?
    Mr. Higgins. Yes. Mr. Chairman, I ask unanimous consent to 
let the gentlewoman from Texas, Ms. Jackson Lee, be allowed to 
sit and question the witnesses.
    Mr. King. With some trepidation, without objection, so 
ordered.
    Ms. Jackson Lee. Mr. Chairman, you know that you are very 
glad to see me, and we have some of the mutual tendencies of 
compassion and passion, along with the Ranking Member. Thank 
you so very much for this----
    Mr. King. Also, I would like to say to the gentlelady, I 
know she is here today primarily over what happened in Nigeria 
with the girls, and I really thank you for your efforts on 
that.
    Ms. Jackson Lee. Thank you so very much, Mr. Chairman. I 
will have my line of questioning.
    First of all, let me thank the witnesses who are here, and 
it was through this committee that I was able to lead a 
delegation to Africa in 2014. My colleague, Congresswoman 
Wilson, was very pivotal part of this. Very delighted to see 
her.
    Would start my questioning both to Mr. Higgins and to Mr. 
King. Again in appreciation, and I would offer to say that this 
would be another important opportunity for the Homeland 
Security Committee, this committee, to go to Africa and pursue 
some of the lines of questioning and issues.
    Mr. King, let me just be very clear: We are now facing what 
you have been speaking about for a long time, which is 
franchised terrorism, individuals who leave this country and go 
to fight in foreign fields, and then we also have continents 
that we would have never expected or did not have that, say, 10 
years ago.
    I studied in Africa, went to school in Africa, and would 
say to you that as I have traveled throughout the continent, I 
find that the larger percentage of heads of states in this era 
are pushing back on terrorism, but they need our help, and they 
need the intelligence that we have and the kind of hearings 
that we are having here.
    I met with the chairwoman of the African Union. The African 
Union, in particular, has recognized that they have to have a 
role, and they have a military operation particularly dealing 
with Boko Haram in Cameroon, Niger, and Nigeria.
    I met also with the former president of Nigeria, President 
Obasanjo, who was in contact with President Buhari, and we made 
the point that he cannot pull back on the fight against Boko 
Haram.
    So I want to say to these individuals that one of the 
things that we have to do is to look at these countries not as 
a continent, but as individual countries who have their own 
opposition, own crisis.
    I would ask Dr. Byman to follow my line of questioning on 
this whole question of terrorism in Africa. You have the 
Somalian effort--I wouldn't call it--it is too polite to call 
it--terrorists, if you will--who are incensed with Kenya and 
continue to make Kenya a target. You have the ISIL capacity and 
the disruption in Libya and Northern Africa, moving--when 
Gaddafi was alive, a lot of these countries relied upon 
Gaddafi's largess. Now I am not sure whether they feel 
oppressed and they are relying upon ISIL, which is obviously 
devastating.
    But my question is, Boko Haram, that are, I might say, 
thugs and terrorists, are at the heinous and lowest vile level 
of treatment. Can this, in collaboration with the United States 
intelligence, can there be an effort waged by African countries 
who individually have their own sovereignty against this 
threat? Can a collective response come about?
    Mr. Byman. I think we are seeing the beginnings of a 
collective response. Part of that is military and part of it is 
better information sharing. Here the United States can play a 
tremendous role, because often these governments don't 
coordinate well with each other and the United States, if you 
will, can be the concert master, bringing the different 
instruments together.
    However, for Boko Haram in particular, the solutions begin 
and end with the Nigerian government. There may be an 
opportunity for improvement with the new government, but there 
are tremendous problems at all levels, right?
    So whether these are the broader problems that lead people 
to join the group, whether it is the breakdown of local law and 
order, whether it is the distrust felt by many citizens for the 
government, whether it is the tremendous corruption and abuse 
within the military, I would say that certainly regional 
solutions matter and are part of this, but the primary emphasis 
must be on Nigeria.
    Ms. Jackson Lee. Mr. Chairman, if--I see my time is running 
out. Let me thank you for that.
    We have focused on Nigeria. The delegation went to Nigeria, 
met in Abuja.
    What I would say to my colleagues, you have a very eager 
aspect of the Africa Command. That is not the civilian part, 
but the African Command wants to utilize its intelligence 
capacity. Many of you know the Leahy provisions, which have 
been appreciated for what they stood for about human rights, 
but that is a bar for an extended utilization of intelligence.
    I would hope this committee, which recognizes that anything 
outside of our boundaries can get into our boundaries, that we 
would pay a pivotal--could play a pivotal role in being 
demonstrative about getting ahead of this terrorist movement in 
Africa where heads of states want to fight against it, and to 
find a way to share intelligence, to find a way to share 
expertise, because I frankly think that the Africa Command that 
is on the ground now has been very helpful to the Nigerian 
military. We met with the Nigerian military, and these 
gentlemen looked proficient but needed help, and they wanted 
help.
    So I think we can--this committee, I think, can be very 
helpful in making sure that the new administration does not 
pull away from fighting Boko Haram in particular--I know that 
there are a number of others--from fighting Boko Haram as Kenya 
is trying to fight al-Shabaab and pushing back on ISIL, but 
fighting them, but also not letting the heat off of them for 
finding those girls in Chibok, for not saying, ``We think they 
are married off, they have become Muslims.''
    Those families are not ceding the point that their girls, 
who were in the school simply to take exams--Christian girls--
to take exams, that they have now gone off and they have become 
Muslim and they are married. We don't know what is in their 
little minds. They may be doing things to survive, but they are 
not--they may not be where if you pull them out, give them and 
restore their lives with their families, that they would be 
able to do that.
    I do want to make note of the fact that--excuse me, that 
Boko Haram is killing Christians, killing Muslims, or burning 
mosques, or burning hospitals, et cetera. So I think this 
committee--I am so grateful for this hearing, and I think this 
committee can be enormously great--a very--because we have a 
broad policy. We are not intelligence; we are broad policy.
    I think this subcommittee can be a great leader in this 
issue, and we can get in front of this movement with leaders 
in--on the continent who really want to work with us, who 
really want to push--it doesn't help them at all. They are 
emerging developing nations and this terrorist threat and this 
terrorist huge mountain of fear does not do them any good.
    To the gentleman's comment--and I will close--to the 
gentleman's comment, to the doctor's comment, that was one of 
the reasons that the northern state felt that they were not 
getting the resources, and in actuality, the intelligentsia 
started the concept of Boko Haram, but it was an intellectual 
discussion, peaceful, ``We are going to fight against you 
through words.''
    Then, of course, it got pulled off. These guys got pushed 
to the side, and we now have this violent, heinous leader, 
which must be caught.
    I just wanted to just double-compliment you for this. It is 
one of the committees that has taken this on head-on, and 
however I can be of help, and I would make the very large 
suggestion to invite--to ask you two gentlemen that we can join 
and lead a delegation back to the continent on these many, many 
issues. I think it would be a very important mission on behalf 
of the United States of America.
    Your kindness has been very much appreciated, and with 
that, I yield back.
    Mr. King. Gentlelady yields back, and I thank her for her 
passion and dedication.
    Now the gentlelady from Florida, Ms. Wilson, is recognized. 
Thank you for joining us today.
    Ms. Wilson of Florida. Thank you, Mr. Chairman, for 
allowing me to join you today.
    Thank you, to the Ranking Member.
    Thank you, to the panel.
    This is truly something that I am truly concerned about, 
and I just wanted to find out today how deeply the Homeland 
Security Committee was involved in this. I have been working 
with the Foreign Affairs Committee, who sponsored the trip that 
we took last year to Nigeria, and to hear Ms. Jackson Lee ask 
you to take a trip, it would--I would love to accompany you, 
just like we did to--with the Foreign Affairs Committee.
    All of the women of the Congress, Democrats and 
Republicans, were asked to wear red today. We are wearing red 
to signify Bring Back Our Girls, and it is just so wonderful 
that we heard of the discovery of 300 women and girls who have 
been discovered, and we are not sure yet if any of the missing 
Chibok girls that were kidnapped during the raid on the school 
by Boko Haram are amongst the girls that have been discovered, 
so we are waiting for that intelligence to come forward.
    But it just so happens that all of these women and girls 
were in one place, so I think the entire Congress' ears or the 
antennas are up, trying to hear what kind of intelligence we 
can get from that particular issue.
    We know that ISIS, that--well, Boko Haram reached out to 
ISIS for partnership, and at my last readings, ISIS accepted 
that partnership. I am not sure if that is true or if that is 
propaganda by Boko Haram.
    If they did accept that partnership, I would like to know 
what are some of the consequences that are likely to result 
from Boko Haram's attempt to ally itself with ISIS, and would 
we have advance knowledge of plans to attack Americans or carry 
out attacks in the United States by Boko Haram with the 
marriage of Boko Haram and ISIS?
    Mr. Pham. Thank you very much, Ms. Wilson, for your great 
interest and passion on this. To answer your question about the 
alliance between Boko Haram and ISIS, this is a copy, a 
printout of ISIS's magazine, the current issue, and it says 
``Shariah Alone Will Rule Africa,'' and there is a whole 
section, and they go through--lay out exactly what they expect 
from this alliance, and they--it is very explicit that those 
people who want to get--join the Islamic State and fight but 
because of tighter border controls and vigilance can't get 
across the border into Iraq or Syria or can't move on from 
Libya, they are encouraging them to link up with Boko Haram and 
fight there in their so-called Islamic State West Africa 
Province.
    So the short answer to your factual question is that is 
what ISIS is calling for.
    The broader answer is, how does this affect this? Very 
potentially, if Boko Haram--and this is a big if--maintain--
manages to maintain a territorial foothold--they have been 
pushed out. Nigerian military and its regional allies have done 
a great job pushing them out. If they, however, maintain some 
sort of territorial foothold, then these fighters have a place 
to go to and then we have a serious regional issue. That is the 
upside for Boko Haram.
    The downside is as they get farther from the local matrix 
in which they are embedded it becomes a little more difficult 
for them. So I think the jury is still out, but it is something 
that certainly threatens Nigeria, its neighbors, and the 
international security as a whole.
    Ms. Wilson of Florida. Do you have any--Mr. Chairman, do 
you have any information or updates of anyone in the United 
States that are connected with Boko Haram in any way that would 
issue a threat for local people joining and that would carry 
out attacks for Boko Haram in the United States since the 
kidnap of the girls? Any intelligence seeping out on that area?
    Mr. Joscelyn. I will say this quickly--I don't have 
anything specifically on that and calling for attacks, you 
know, in that regard. But we are already starting to see how 
the Islamic State's African presence, from the Northern Africa 
down through Boko Haram, is starting to attract Western 
recruits and foreigners. In fact, there was recently there was 
an arrest of an American who was going to fight off for the 
Islamic State in Derna, Libya, and basically he and his cousin 
allegedly were planning--and a plot also in Illinois.
    So you see the potential for this type of thing already, 
where, as Dr. Pham noted, when they accepted--the Islamic State 
accepted the Boko Haram pledge of allegiance they explicitly 
said they wanted foreigners and recruits from the West and 
elsewhere to come to West Africa if they couldn't come to the 
Islamic State elsewhere. So there is always that potential 
there for that type of thing.
    Ms. Wilson of Florida. Thank you.
    I see my time is up. I am concerned about the homeland, and 
I am concerned about Africa. But No. 1, the homeland, as to 
what kind of threat does Boko Haram have on the homeland, 
America.
    Thank you.
    Mr. King. Gentlelady yields back.
    In discussion with the Ranking Member, since votes are 
coming up we will try to limit another round to 2 minutes for 
each of the Members.
    Mr. Joscelyn, I would like to follow up on what you just 
said now, because that was going to be my question, is that we 
focus on foreign fighters coming from Syria. That is the main 
focus we have had.
    But now, in view of the shifting alliances or the growing 
alliances, and with ISIS recommending or urging that foreign 
fighters go to Libya, how much of a threat do you see that to 
the United States, for instance, foreign fighters going to 
other countries besides Syria, which is difficult enough to 
monitor, but, you know, can we see Libya, can we see other 
countries in Africa where those foreign fighters would go and 
then return to the United States or to Europe?
    Mr. Joscelyn. I think the potential is obviously greater 
for a return to Europe, and you can see all the European 
security services, intelligence services are, in some cases, 
very freaked out about the whole thing because they realize 
they have a growing problem.
    But I would say, the whole issue here----
    Mr. King. But you know, you should mention, because of the 
visa waiver those Europeans could come to the United States 
unless they have been monitored.
    Mr. Joscelyn. There is a potential for that for traveling, 
obviously, in the United States, absolutely.
    I would say the problem is really to look at it 
holistically. My big concern is that what is going on in North 
Africa isn't distinct from what is happening in Syria and Iraq. 
These facilitation networks have been long connected and are 
tied directly together. We witness on a regular basis the flow 
of fighters and leaders across these borders.
    In fact, you know, I said in my written testimony, in fact, 
one of the guys who helped recruit the 9/11 hijackers actually 
traveled to Egypt to help broker an alliance for the Islamic 
State with the group in the Sinai. This is stunning.
    I mean, this is a guy who was--helped recruit the 9/11 
hijackers that came and attacked us here is actually traveling 
to North Africa and the Sinai on behalf of the Islamic State. 
This is the type of thing that I find to be very worrisome, 
because you don't know what else he could be doing.
    Mr. King. Dr. Byman, do you have any----
    Mr. Byman. I will add both a note of bad news that is 
obvious, but also a note of good news.
    The broader the movement spreads, the more affiliates it 
has, the more places that need to be monitored. The good news, 
though, is it is a coordination problem for the Islamic State.
    There is an intelligence saying that 1 plus 1 equals 11, 
right, that the more you add to the circle, the more 
opportunities you have to discover this. So if they are trying 
to launch operations based in Syria via Libya then there are 
multiple places to learn about it and disrupt it. So it is 
harder for them, even though it is also challenging for us.
    Mr. King. Ranking Member is recognized for 2 minutes.
    Mr. Higgins. Yes. Thank you, Mr. Chairman.
    The former Nigerian president didn't have much of an 
appetite for, you know, fighting Boko Haram. What is the likely 
change with the new administration relative to that issue?
    Mr. Pham. The president elect, Muhammadu Buhari, is a 
retired military officer. He is a major general rank. The 
perception is that he will--he understands the military--he is 
a Muslim from the north of Nigeria--so that he would be able to 
move with more resolution.
    To be fair to the out-going president, I think we have to 
acknowledge that the day before he lost the election was the 
day that the military took back Gwoza, the headquarters of Boko 
Haram. So a bit of progress, perhaps a bit too late both for 
his political fortunes, but there were some efforts made.
    The key is going to be with the in-coming Nigerian 
government is to rebuild the trust that was, for a variety of 
reasons, and there is blame, I think, on both sides, that was 
allowed to really disintegrate in the last year or year-and-a-
half.
    Mr. Joscelyn. I think that is right. I think we have seen 
now, also, more regional cooperation with the government in 
Nigeria and the surrounding countries going after Boko Haram 
from different sides, and you can see Boko Haram is actually 
lashing out at other countries, like Chad and others, because 
of that. So there is definitely more regional cooperation 
there.
    I just want to add one real quick thing to all this whole 
thing. There is another group in Nigeria that nobody talks 
about, which is called Ansaru, which is actually--it is al-
Qaeda's front in Nigeria, and they are deliberately playing off 
of Boko Haram's excessive violence to try and inculcate its 
ideology in Nigeria.
    So this is the way al-Qaeda's groups are basically playing 
off of and triangulating off of the Islamic State's presence. 
It is that type of thing which could lead to the next crisis 
somewhere down the line if they are actually successful with 
that type of effort.
    Mr. Higgins. Well, let me just--what is that--what is the 
next crisis?
    Mr. Joscelyn. Well, see, here is the problem. What al-Qaeda 
is doing with these groups is that they are becoming--they are 
trying to portray themselves as a home-grown, local Nigerian 
effort. The problem is that they can commit acts of terror, 
they can do things that look like they are more part of the 
local community than being a foreign ISIS sort-of related sort-
of effort. That becomes trickier to handle from a 
counterterrorism standpoint because then you are dealing with 
potentially a group that has much deeper roots in the 
community.
    Now, this is a nascent effort. It is just getting underway. 
It is not something that is close to fruition, so I don't want 
to over-hype the threat. But it is just an important indication 
of what al-Qaeda is doing not just there but elsewhere, where 
they are actually actively triangulating off of ISIS's 
brutality to get more supporters.
    Mr. Byman. Mr. Higgins, if I may, to add on the next 
crisis, one of the problems is that these groups are regional 
but often our response is not.
    So we can have a success. Let's say somewhat miraculously 
things go well in Nigeria for the next few years. That doesn't 
mean these fighters all go away. Some of them will go to 
neighboring states.
    So our success in one area can lead to failure, really, in 
another. Often bureaucratically and almost intellectually, we 
are not structured to handle this on a regional basis; we 
handle it country by country. That is something I think we 
should work on.
    Mr. Pham. If I may just add to your question on what is 
next, another--there are various groups throughout Africa, many 
of which have been active for some time with links. For 
example, in my written testimony I bring up the Allied 
Democratic Forces in the borderlands between Uganda and the 
Democratic Republic of the Congo.
    It has existed for more than 20 years. Its leader, Jamil 
Mukulu has links to pre-9/11 al-Qaeda and terrorist groups in 
South Asia. It has been on a rampage for the last several 
months, several hundred people killed, including just last week 
5 villagers who opposed them beheaded. It doesn't get any 
attention.
    We have got other issues in the DRC and Uganda, so these 
are threats that are ignored but they are clearly on the 
uptick.
    Mr. Higgins. Thank you.
    Yield back, Mr. Chairman.
    Mr. King. Gentleman from Pennsylvania.
    Mr. Barletta. Thank you, Mr. Chairman.
    Dr. Pham, when we think of terrorism we often focus on the 
military response in dealing with it. What non-military 
initiatives should the United States be doing to try to combat 
and contain what is happening in Africa?
    Mr. Pham. Thank you very much, sir. Certainly we need to 
also ramp up not just support for partner militaries, but also 
policing and intelligence.
    For example, Kenya has a relatively effective military. It 
has done very well helping us and other countries push Shabaab 
in Somalia. But the police service is a disaster. There were 
reporters who hopped into their cars who got to the Garissa 
University attack faster than the elite police unit, for want 
of transport.
    So policing, and certainly these--although I adamantly push 
back against the idea that poverty makes people extremists, 
certainly underdevelopment, political, social, and economic 
marginalization presents a ready pool of potential people, and 
so the whole-government approach through some of these areas.
    There is a reason why northeastern Nigeria was particularly 
susceptible to Boko Haram, and I can say that for many regions 
in Africa.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. We do have several more minutes. If I could just 
ask the question, and obviously then the Ranking Member can ask 
whatever questions he wants, so what European allies or what 
European countries do you feel could be more constructive or 
are being constructive now and, you know, which ones could be 
more constructive as far as coming up with a comprehensive, 
cohesive approach to terrorism in Africa?
    Mr. Joscelyn. Well, it is tough to say because each country 
in Africa, each part of Africa there are different probably 
pulls from different parts of Europe, so it is probably a 
different response for, say, like North Africa or Libya, where 
Italy is obviously the focus of our attention because they are 
the ones who are most proactive or not proactive in terms of 
combatting the threats; down to the French, when it comes to 
Mali and those sort of traditionally Thai areas.
    You know, the bottom line, from my perspective, is that 
because everything is seen as ad hoc, as opposed to connected, 
there is no real grand strategy for combatting these groups as 
a whole. So basically, the strategy against ISIS in Libya could 
be one thing, whereas the strategy for the new ISIS-Boko Haram 
merger in Nigeria could be another thing.
    In some cases there--obviously there are localized 
components of this whole thing, so that partly makes sense. But 
it doesn't make sense when you actually understand their 
strategy that is comprehensive, and it is across the, you know, 
large portions of the continent. AQIM is a great example of 
that, where they took advantage of the situation in Libya to 
basically overrun large portions of Mali by using the arms and 
a rear base.
    So without that sort-of comprehensive look at the whole 
thing, and pooling resources, we should be--it should be an 
all-hands-on-deck effort, is what I am saying, where multiple 
European partnership should be involved with the United States 
and our African allies to basically look at it from that 
perspective.
    Mr. King. Are you saying, though, that basically unless a 
European country had a colonial interest in Africa it would 
have minimal influence today?
    Mr. Joscelyn. It is definitely tied in part to the colonial 
past, but there are more complicated issues, as well, in terms 
of current business interests when it comes to oil companies 
and others. But also, there are all sorts of potential reasons 
why European countries are invested in different parts of 
Africa.
    Mr. King. Dr. Pham.
    Mr. Pham. Mr. Chairman, in addition to Italy and France, as 
Mr. Joscelyn mentioned, I would also point out also that 
certainly our British friends are heavily invested, especially 
in West Africa and parts of East Africa.
    Also, we shouldn't overlook our African partners. For 
example, Morocco has an extraordinary program on counter-
radicalization. They are helping not only their own country, 
but also Tunisia, Mali, Guinea, with training of imams on more 
moderate forms of Islam, pushing back--a program pushing back 
radicalization. We signed a framework----
    Mr. King. If I could just say, we actually know very little 
about Morocco, so I am glad you brought that up today.
    Mr. Pham. We signed a framework agreement at the margins of 
the U.S.-Africa Leaders Summit last August with Morocco to 
partner with them, although the--on regional training. So that 
is an example, and certainly we can work with the African 
Union, especially the peace and security commissioner, who was 
just in town recently, again, seeking, actually, U.S. 
engagement. I had actually encouraged him to come back and come 
to the Hill and engage with--he had some very concrete--
Ambassador Smail Chergui had some very concrete wish lists, and 
I think some of them were--dovetail very nicely with the 
concerns of this subcommittee and the committee.
    Mr. King. Dr. Byman.
    Mr. Byman. I would only briefly add that a number of our 
allies, especially France, have shown a willingness to be quite 
active and to go into areas that are important but the United 
States has been reluctant to enter or engage with seriously, 
France and Mali being the great example.
    We should be thinking fairly seriously about ways we can 
help their effort. It can be a lot of behind-the-scenes 
efforts; it can be intelligence, surveillance, and 
reconnaissance; it can be coordinating training efforts.
    There is a lot that can be done where the Europeans are 
more logical countries to take the lead, and that is something 
we should see as a benefit rather than competition.
    Mr. King. Mr. Higgins.
    Mr. Higgins. Yes. Thank you, Mr. Chairman.
    The ISIS presence in the continent of Africa--is it likely 
to increase, I mean, their operations moving to the continent 
itself?
    Mr. Joscelyn. I will say this quickly: What Dr. Byman said 
earlier about it being tied to their military fortunes in Iraq 
and Syria is precisely correct, that basically as long as they 
can keep the caliphate claim going, that fuels recruitment in 
their sense of that they are this big sort of powerful entity 
that is taking on all comers. So that is a big part of it.
    But in addition to that, they also have localized 
strategies for growing inside Libya and elsewhere across the 
continent. Really it is a complicated environment in each 
country. If you look at Libya it is a total mess. I mean, it is 
basically a seven- or eight-sided game right now inside Libya, 
which is hard to distill into one thing.
    ISIS has inserted itself with a very simple message, that 
we are the caliphate and we are here. That has some advantages, 
but also has some disadvantages.
    Mr. Higgins. So their--this strategy of ISIS is to be ever-
present and to let that presence be known, because it is really 
all about control of territory. So their objective would be to 
control; is it conceivable that there could be an ISIS-al-Qaeda 
conflict?
    Mr. Joscelyn. Well, we have seen ISIS and al-Qaeda conflict 
across the board, including in Africa. In Libya, in fact, last 
summer, the local al-Qaeda group in Drerna actually killed the 
military commander for ISIS, shot him. There have been other 
sort-of instances like that, as well.
    One quick thing: Al-Qaeda is also interested in controlling 
territory. They do control territory. They go about it very 
differently, which is--it is a whole--the end-game is very much 
the same, in terms of building a caliphate. Just that al-Qaeda 
has very different steps to get there.
    Mr. Higgins. So this conflict between ISIS and al-Qaeda 
presumably will expand in the continent.
    Mr. Joscelyn. Yes. We have already seen indications of 
that. In fact, there were--there is actually--right now what is 
happening is that ISIS in Libya is taking on the Farj militia 
in Libya and other Islamist groups in Libya. In some cases they 
are running into al-Qaeda pushback as well; in some cases they 
are cooperating with al-Qaeda fronts in Libya. So it is 
complicated.
    Mr. Higgins. Where is Abu Bakr al-Baghdadi today?
    Mr. Joscelyn. There are reports that he is injured. I don't 
know that that is true. We see reports that he has a severe 
spinal cord injury all the way to the idea that he is dead.
    I don't know how much of those are true at this point. We 
have seen an official denial by some people in the U.S. 
Government. I basically leave that very open-ended.
    Mr. Higgins. Yield back.
    Mr. King. Lou, do you have any questions?
    Okay. Let me thank the witnesses for your testimony. We 
have just been notified the votes are coming up in a matter of 
minutes, but I want to thank you for your testimony today.
    I want to thank the Members for their questions, thank the 
Ranking Member for his cooperation.
    Our Members of the subcommittee may have additional 
questions, and we will ask you to respond to those in writing. 
With that, pursuant to committee rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. 
Again, thank you very much.
    [Whereupon, at 1:33 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
